AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
       CLIENT SUPPORT CENTERS
   REPORT NUMBER A020144/T/5/Z04002
            JANUARY 8, 2004
                AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTERS
                   REPORT NUMBER A020144/T/5/Z04002

                             TABLE OF CONTENTS
                                                             Page

REPORT LETTER                                                 1

EXECUTIVE SUMMARY                                             2

INTRODUCTION                                                  4

     Background                                               4

     Objectives, Scope and Methodology                        6

RESULTS OF AUDIT                                              8

     Sole Source Awards                                       8

     Misuse of Small Business 8(a) Sole Source Authority     10

     Work Outside of the Contract Scope on Other Contracts   18

     Inappropriate Use of the IT Fund                        19

     Improper Order Modifications Extended the Time Period
     For Re-Competition and Resulted in Cost Growth          20

     Frequent Use of Time and Materials Tasks                22

     Documentation Lacking to Assure Reasonable Pricing      23

     Questionable Contracting Practices                      24

     Causes of Improper Procurement Practices                27

     Performance Measures                                    29

     Conclusions                                             30

     Recommendations                                         31

     Management Response                                     31
                    AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                           CLIENT SUPPORT CENTERS
                       REPORT NUMBER A020144/T/5/Z04002

                              TABLE OF CONTENTS
                                  (Continued)

                                                                    Page

Internal Controls                                                   32

Appendices

   A. Schedule of Orders Reviewed in Region 6                       33

   B. Schedule of Orders Reviewed in Region 10                      40

   C. Schedule of Orders Reviewed in Region 4                       45

   D. Schedule of Non-IT Orders                                     48

   E. List of DOD Inspector General Audit Reports Relating to DOD
      Purchases from GSA                                            52

   F. FTS Commissioner’s Response to the Draft Report               53

   G. Report Distribution                                           56
DATE: January 8, 2004

REPLY TO
ATTN OF: Regional Inspector General for Auditing, Great Lakes Region (JA-5)

SUBJECT: Audit of Federal Technology Service’s,Client Support Centers, Report Number A020144/T/5/Z04002

To: Sandra N. Bates, Commissioner,Federal Technology Service (T)
This report presents the results of the Office of Inspector General’s audit of Federal Technology Service’s Client Support Centers in Regions 4, 6, and 10.

This audit was conducted as part of the Office of Inspector General’s annual audit plan. Our specific audit objective was to answer the following question: Did the Client Support Centers make procurements in accordance with the Federal Acquisition Regulation
(FAR) and the terms and conditions of the contracts utilized?

The audit identified numerous improper task order awards, such as misuse of small business contracts, and ordering work outside the scope of a contract and the Information Technology Fund. As a result, the contracting practices did not provide reasonable
assurance that the Government received supplies and services at a fair and reasonable price. We identified several factors that contributed to these problems, including an ineffective system of internal management controls, personnel accommodating customer
preferences, and an emphasis on revenue growth. Based on our audit findings, FTS officials in regional offices and Central Office have taken prompt actions to begin correcting the problems identified and have asked for our assistance.

We have included your written response to the draft report as an appendix to this report.

Sincerely,

(signature of John Langeland)

JOHN LANGELAND
Audit Manager
Great Lakes Region




                                                                                                                                 1
                   AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                          CLIENT SUPPORT CENTERS
                      REPORT NUMBER A020144/T/5/Z04002


                                EXECUTIVE SUMMARY

Purpose

The objective of the review was to determine if the Client Support Centers (CSCs) made
procurements in accordance with the Federal Acquisition Regulation (FAR) and the
terms and conditions of the contracts utilized.

Background

The core business of the Information Technology (IT) Solutions business line is the
reselling of private sector solutions that are obtained through the award and
administration of contracts with the private sector. CSCs issue and manage task and
delivery orders against existing contracts, manage projects, and maintain a staff of IT
managers and project managers.

Revenues from CSC procurements have increased in recent years from $3.8 billion in
fiscal year 2001 to $4.7 billion in fiscal year 2002, and $5.8 billion in fiscal year 2003.
Department of Defense (DOD) customers represent over 85 percent of the business of
the regional CSCs. Task and delivery orders written against FSS Schedules represent
approximately 60 percent of the CSCs’ business, on a dollar basis. Tasks for services
represent the majority of CSC business.

There are 11 regional CSCs, which are located in every GSA region. CSCs perform
direct interface with customer agencies to define requirements.

Results-in-Brief

The audit identified numerous improper task order and contract awards. In making
these awards, CSC officials breached Government procurement laws and regulations,
and on a number of occasions, processed procurement transactions for goods and
services through the Information Technology Fund that were well outside the fund’s
legislatively authorized purposes. Inappropriate contracting practices included: improper
sole source awards, misuse of small business contracts, allowing work outside the
contract scope, improper order modifications, frequent inappropriate use of time and
materials task orders, and not enforcing contract provisions. Although their procurement
authority is restricted to acquiring information technology equipment, software and
related services, we identified CSCs making procurements for such things as: floating
marine barriers; construction of classrooms and office buildings; and pathogen detection
devices and services. In making several of these awards, millions of dollars were
wasted by compensating the contractors for doing little more than placing orders with
other favored contractors to do the actual work. Competition, or otherwise permitting
vendors a fair opportunity to be considered, was absent from many of the transactions


                                           2
examined. As a result, the procurements did not provide reasonable assurance that the
Government received supplies and services at a fair and reasonable price and the
fundamental objectives underlying the federal procurement process were not achieved.

Several factors contributed to the problems we identified: an ineffective system of
internal management controls, CSC personnel sacrificing adherence to proper
procurement procedures in order to accommodate customer preferences, and a culture
that emphasized revenue growth. These factors created an environment that fostered
client-driven decisions and inattention to laws and regulations, increasing the program’s
vulnerability to fraud, waste and abuse. We also determined that FTS’ performance
measures do not adequately promote competition. Therefore, we conclude that the
internal controls that were established were not always effective and did not provide
assurance that Government funds were reasonably protected.

Recommendations

We recommend that the Commissioner, FTS, analyze the problems identified and
determine what changes are needed in the structure, operations and mission of the
CSCs, mix of resources, and management control processes to align policies and
procedures with laws and regulations and GSA’s own core values in ensuring the
Government obtains best value. We also recommend that the Commissioner, FTS
develop additional performance measures for the CSCs that promote competition and
other sound procurement practices.

Management Response

The Commissioner, FTS concurred with the report recommendations. She stated that
FTS has begun to implement a series of actions and initiatives to improve acquisition
quality and integrity across the organization.




                                           3
                     AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                            CLIENT SUPPORT CENTERS
                        REPORT NUMBER A020144/T/5/Z04002


                                        INTRODUCTION


Background

The Information Technology (IT) Solutions business line within FTS is a fully cost-
reimbursable solutions provider to the Federal IT community. The core business of the
IT Solutions business line is the reselling of private sector solutions that are obtained
through the award and administration of contracts with the private sector. Under FTS’
Office of Information Technology Integration, there are 11 regional Client Support
Centers (CSCs) and several national CSCs providing support to the Federal IT
community.

The regional and national CSCs rely on a variety of contract vehicles to engage private
sector services to satisfy client agency requirements: FTS contracts,1 Federal Supply
Service (FSS) Schedules, and Government-wide contracts awarded and managed by
the contracting offices of other agencies.

Regional CSCs

Our review focused on 3 of the 11 regional CSCs, which are located in every GSA
region. CSCs perform direct interface with customer agencies to define requirements,
identify sources of the needed products or services, prepare task and delivery orders,
and manage projects, depending on the level of support that the client requires. The
established duties, authorities, responsibilities, and funding of the regional CSCs are as
follows:

    •   Issue and manage task and delivery orders against existing contracts, manage
        projects, and maintain a staff of IT managers and project managers. CSCs
        require technical, project management, and contracting expertise;

    •   Work directly with Federal clients to deliver services and products after sales
        have been made. The level of involvement depends on the complexity of the
        task; e.g., commodity purchases often require less support than services tasks;




1
  FTS provided Solution Development Centers (SDCs) as centers of contracting expertise that the
regional CSCs can rely on. As an example, the Small Business SDC provides a suite of competitively
awarded contracts set aside for 8(a) program certified small and disadvantaged businesses. (FTS SDCs
are now part of the Federal Supply Service.)


                                                4
   •   Conduct pre and post order processing activities and maintain their own
       contracting staffs; and

   •   Develop the capability to resell all SDC contracts and solutions and are
       evaluated on the ability to do so.

Authorities

CSCs are authorized to maintain their own contracting staffs and to award small
contracts (under $5 million) and blanket purchase agreements for specific clients
wherein the customer agency pays for all contracting and acquisition costs. However,
the CSC must first consider all existing FTS and FSS contracts to determine if the
customer can be served effectively using an established contract vehicle. The awarding
of open market contracts by the CSCs is the least preferred option when providing a
solution for a client agency. CSCs are specifically not authorized to award Government-
wide contracts or large IT contracts for specific clients without prior approval of the FTS
Office of IT Integration.

Responsibilities

CSCs are responsible for understanding clients and their missions, goals, objectives,
and requirements. The CSCs must develop teams that are knowledgeable of all FTS
product and service offerings.

Performance appraisals of employees within a CSC are based primarily on client
satisfaction levels and how well assigned work is performed. Evaluation criteria include
client agency satisfaction and work product excellence.

Funding

CSCs have profit and loss responsibility. Client agencies are assessed fees for the
services provided. Our review found that these fees generally ranged from one to four
percent of product cost. Typically, the client provides FTS with a Military
Interdepartmental Purchase Request (MIPR) or other reimbursable funding document,
which obligates funds for GSA’s use. GSA pays the contractor from the IT Fund as
invoices are received and GSA bills the customer.

Revenue and Additional Information

The regional CSCs have had marked revenue growth in recent reporting periods, as
shown below:

                   Period         Revenue
              Fiscal Year 2001 $3,845,698,700
              Fiscal Year 2002 $4,722,820,600
              Fiscal Year 2003 $5,833,842,800


                                           5
The level of contracting activity varies among the regional CSCs. For example, fiscal
year (FY) 2002 revenues ranged from $133.65 million (Region 2) to just over $1 billion
(Region 6). Likewise, FY 2002 funded full time equivalent (FTE) employees ranged from
10.8 FTE in Region 1 to 62 FTE in the National Capitol Region.

Department of Defense (DOD) customers represent over 85 percent of the business of
the regional CSCs. Task and delivery orders written against FSS Schedules represent
approximately 60 percent of the CSCs’ business, on a dollar basis. Data we received
from the Region 6 CSC (the largest revenue region) indicated that services tasks
represented approximately 65 percent of revenues, which we believe is typical of other
CSCs.

In addition to our audit of CSCs, the DOD Inspector General (DOD-IG) performed
several audits during 2002 and 2003 of DOD purchases from GSA. The DOD-IG
identified problems in: contracting for professional, administration and management
support; use and control of Military Interdepartmental Purchase Requests; contract
actions awarded to small businesses; and procurement of the Seat Management
initiative. (See Appendix E for a list of related DOD-IG audit reports.)

Objectives, Scope and Methodology

In a meeting with the Assistant Commissioner for IT Solutions regarding possible audit
areas for FY 2002, an audit of CSC procurement practices was mutually agreed upon.

The objective of the review was to determine: Did the CSCs make procurements in
accordance with the Federal Acquisition Regulation (FAR) and the terms and conditions
of the contracts utilized?

To accomplish the objective, we:

   Obtained, prior to commencing audit field work, databases covering all CSC orders
   and modifications initiated during FY 2002, for selected regions;

   Obtained, as part of our survey work, program data from FTS Central Office officials;

   Reviewed orders and related procurement documentation contained in the
   Information Technology Solutions Shop (ITSS) database;

   Performed the audit fieldwork in Region 4, Region 6, and Region 10, including on-
   site work at Camp Murray and Fort Lewis (State of Washington) and contractors’
   headquarters located in Colorado Springs, Colorado; and Bremerton, Washington;

   Reviewed 50 orders valued at $227,937,414 in Region 4; 83 orders valued at
   $356,369,881 in Region 6; and 58 orders valued at $51,860,168 in Region 10. In
   determining orders to be reviewed, we selected a judgmental sample of orders
   exceeding $100,000, which did not represent a statistical sample;



                                          6
    Obtained Military Interdepartmental Purchase Requests (MIPRS) and other funding
    documents related to the procurements we reviewed;

    Reviewed 11 client-specific, single award, indefinite delivery/indefinite quantity
    contracts;

    Reviewed several Small Business SDC 8(a) contracts;

    Reviewed FSS Schedule contracts, price lists, and authorized terms and conditions
    obtained from FSS personnel;

    Reviewed architectural drawings, architect’s construction specifications, and marine
    construction specifications;

    Contacted contractors and client agencies via telephone and other electronic means
    and requested data;

    Performed tests of contract administration, including testing invoices to determine if
    billings were in accordance with contract terms and conditions;

    Obtained competitive quotes to test price reasonableness;

    Reviewed laws, regulations, and applicable guidance, including the FSS “Ordering
    Procedures for Services (Requiring a Statement of Work);” and

    Interviewed CSC Information Technology Managers2 (ITMs).

Our review focused on procurements made in FY 2002; however, in some cases we
followed clients’ projects back to FY 1997 and through FY 2003.

The audit was conducted from May 2002 to September 2003 in accordance with
generally accepted Government auditing standards.




2
 The basic account management function is referred to, depending on the region, as an Information
Technology Manager or an Information Technology Representative.


                                              7
                                 RESULTS OF AUDIT


The audit identified numerous improper task order and contract awards. In making
these awards, CSC officials breached Government procurement laws and regulations
and, on a number of occasions, processed procurement transactions for goods and
services through the Information Technology Fund that were well outside the fund’s
legislatively authorized purposes.       Inappropriate contracting practices included:
improper sole source awards, misuse of small business contracts, ordering work outside
the contract scope, improper order modifications, frequent inappropriate use of time and
materials task orders, and not enforcing contract provisions. Although their legislative
procurement authority is restricted to acquiring information technology equipment,
software and related services, we identified CSC officials making procurements for such
things as: floating marine barriers; construction of classrooms and office buildings; and
pathogen detection devices and services. In making several of these awards, millions of
dollars were wasted by compensating the contractors for doing little more than placing
orders with other favored contractors to do the actual work. Competition or otherwise
permitting vendors a fair opportunity to be considered was absent from many of the
transactions examined. As a result, the procurements did not provide reasonable
assurance that the Government received supplies and services at a fair and reasonable
price, and the fundamental objectives underlying the federal procurement process were
not achieved.

Several factors contributed to the problems we identified: an ineffective system of
internal management controls, CSC personnel sacrificing adherence to proper
procurement procedures in order to accommodate customer preferences, and a culture
that emphasized revenue growth. These factors created an environment that fostered
client-driven decisions and inattention to laws and regulations, increasing the program’s
vulnerability to fraud, waste and abuse. We also determined that FTS’ performance
measures do not adequately promote competition. Therefore, we concluded that the
internal controls that were established were not always effective and did not provide
assurance that Government funds were reasonably protected.

Sole Source Awards

Of 92 FSS Schedule orders for services in our sample, the CSCs awarded 50 orders
(54 percent) without the benefit of competition. A substantial number of these sole
source awards were not proper. Recent legislation and FSS ordering procedures
specify the need to obtain a minimum of three offers for most orders to ensure fair and
reasonable prices. We concluded that, particularly in the case of professional services,
the client generally had a vendor in mind before coming to GSA, and the prevalence of
single source justifications suggests that many clients were not interested in competing
the requirement. The CSCs were not proactive toward expanding the competitive
environment for task orders. As a result, the Government did not obtain the benefits of
competition and potentially lower costs.



                                           8
CSCs Accepted Customer Agency Justifications

CSCs approved agency justifications to limit competition with little scrutiny or effort to
obtain additional sources. For example, Region 6 approved a sole-source task for the
Department of Defense covering Uninterruptible Power Supply (UPS) systems work
against an FSS Schedule contract. The award was made to Powerware Corporation for
$675,000. Based on the statement of work, we questioned whether competition should
have been limited to a single vendor. FSS assisted us in determining if there were other
Schedule vendors that had the capability to perform the work. Based on a general
description of the work, FSS provided us the names of several other Schedule
contractors with coverage for UPS work. The contractors were easily identifiable via the
Internet-based GSA Schedules e-Library.3

We contacted three contractors, and asked the contractors to advise us as to their
capability of performing the work specified. Within one business day, all three
contractors responded positively to our request. Therefore, with minimal effort, the CSC
could have identified additional sources for this task.

The Region 4 CSC accepted a client’s justification to restrict competition to one FSS
Schedule contractor (KPMG Consulting, Inc.) for technical and analytical support for the
Army related to utilities privatization (Task 4TWG21024143).               However, the
documentation was not adequate to support key statements of fact in the Army’s
justification. For example, in the justification document, the Army indicated that it had
reviewed the qualifications of several competitors and it was clear that no other firm had
the same corporate capability.

The CSC did not request any substantiation for this or any other assertions in the
justification, nor did it choose to make any further inquiries as to other Schedule
contractors’ ability to perform this work. At a minimum, the CSC should have solicited
the “several competitors” noted by the Army.

FSS and DOD Ordering Procedures Require Competition

FSS Schedule services orders (that include a statement of work) expected to exceed
$2,500,4 require the ordering office to send the statement of work to a minimum of three
Schedule contractors for competitive quotes. Orders expected to exceed the maximum
order threshold (MOT), require that the ordering office request quotes from additional
Schedule contractors that offer services that will meet the agency’s needs.

In 2002, the Congress reaffirmed the importance of optimizing competition by enacting
legislation (Section 803 of the National Defense Authorization Act of 2002, Public Law
107-107) which requires ordering agencies to obtain a minimum of three offers for DOD
orders for professional services expected to exceed $100,000 that are placed under


3
    The Schedules e-Library is an on-line source for researching GSA Schedule information.
4
    The micro-purchase threshold is $2,500.


                                                    9
multiple award contracts, including FSS Schedule contracts5. The provisions of Section
803 apply not only to orders placed by DOD, but also to orders placed by non-DOD
agencies on behalf of DOD. Unrestricted use of sole source justifications undermines
these competitive procedures.


Misuse of Small Business 8(a) Sole Source Authority

FAR 19.805-1(a)6 allows for sole source procurements to eligible small business 8(a)
firms if the anticipated total value of the non-manufacturing contract is under $3 million.
Within our sample of 86 small business 8(a) task orders and contracts, we found that
FTS directed improper procurements for millions of dollars in 70 of these cases (81
percent) to obtain the services of companies its customers wanted. We noted instances
where FTS used these contracts in breach of regulations to improperly perform work not
within the scope of the contract, and where the vast majority of work was subcontracted
by the 8(a) vendor to another company. Many of these task orders represented split
procurements in order to avoid exceeding the competitive threshold established for 8(a)
firms by FAR 19.805-1(a). We also found that these actions likely resulted in increased
costs for goods and services and other liabilities for the Government.

Work Performed Outside Scope of Contracts

FTS procured millions of dollars of goods and services that were outside the scopes of
the IT contracts being used. FTS used 8(a) contractors under the sole source provisions
of FAR 19.805-1 to procure defense systems, marine installation services, and
construction and renovation of buildings, even though the contracts were for “non-
complex systems integration services.”

Waterfront Security Barriers. In FY 2002, Region 6 accepted over $100 million in
MIPRs from a Navy client for “Antiterrorism/Force Protection Waterside Security.” FTS,
under the auspices of the IT Fund, contracted for at least $38 million for designing,
fabricating and installing boat barrier systems to protect U.S. Navy facilities in five
separate Mediterranean ports. As pictured on the next page, the barrier systems
consisted of 82-foot long, 8-foot diameter floating rubberized barriers, held in place by
an elaborate system of anchors, buoys, chains and other hardware. The barriers were
intended to physically stop intruding watercraft.




5
  The legislation affects DOD orders placed under multiple award contracts on or after October 25, 2002.
6
  The statutory basis for FAR 19.805-1(a) is the Business Opportunity Reform Act of 1988, Public Law
100-656, sections 303(b) and 303(d), codified at 15 U.S.C., section 636.


                                                 10
                                    Boat Barriers
The program also included a waterside security system (WSS) consisting of radar,
sonar, video systems, and a command control console. While the Navy intended the
WSS and the barriers to be part of an overall harbor security system, we found that the
two systems were separate and distinct. The barriers were intended as a physical
barrier. The WSS monitored boat traffic and provided early warning of possible hostile
intent.7 The systems had separate and distinct statements of work.

FTS used Northern NEF, Inc. to procure the barriers, engineering, fabrication, marine
installation skills, and equipment (boats, cranes, winches, etc.) necessary to anchor the
system to the sea floor using Pearl Harbor anchors (see picture on next page). Northern
NEF had Small Business SDC 8(a) contracts for the provision of non-complex computer
systems integration services under Standard Industrial Classification (SIC) 7373. These
contracts state that the “contractor shall integrate commercially available off-the-shelf
hardware and software resulting in a turnkey system for the GSA client agency.” The
contract line items consisted of professional IT services, namely computer systems
analysts, programmers, and LAN technicians.




7
  FTS officials noted that the rubberized boat barriers contained an electronic “chip.” Our review indicated
that the chip’s price was nominal (about $5; the price for a single boat barricade was over $50,000), and
that it was “essentially dormant.” However, if integrated into the WSS, the chip could be “pinged” to
determine the exact location of the barrier. If the barricade was not at its fixed location, Navy personnel
would have to determine if the barriers had been breached or broken away in a storm. FAR 2.101 states
that the term information technology does not include any equipment that contains imbedded information
technology that is used as an integral part of the product, but the principal function of which is not the
acquisition, storage, manipulation, management, movement, control, display, switching, interchange,
transmission, or reception of data or information.


                                                   11
                               Pearl Harbor Anchors

Camp Murray. FTS officials in Region 10 constructed a modern one-story office
building at Camp Murray, Washington State to house the courseware development
activities of the Washington Army National Guard. The 5,000 square foot office building
was complete with break rooms, showers, conference room, private offices, and space
for 25 to 30 employees. The building’s cost, with furnishings, was around $950,000. The
building was completed around November 2001. (Refer to Appendix B, note 1 and our
alert report number A020144/T/5/W03001 for additional information.)

Total Army Distance Learning Program. FTS officials in Region 10 spent over $36
million renovating United States Army facilities on behalf of the Total Army Distance
Learning Program (TADLP). A goal of the program was to build standardized
classrooms for participants in the program. The building renovation work was
sometimes quite extensive and amounted to over $1,000,000 at a single site. This work
was performed during the period 1998 through 2002. (Refer to Appendix B, note 4 and
our alert report number A020144/T/5/W03001 for additional information.)

FTS used contracts with Information Systems Support, Inc. (ISS) and ACS Systems and
Engineering, Inc. (ACS), to procure the architectural, engineering, and general
construction services to perform the building renovation work. ISS and ACS have Small
Business SDC 8(a) contracts for the provision of non-complex computer systems
integration services under Standard Industrial Classification Code (SIC) 7373. SIC 7373
is for computer integrated systems design. ISS' and ACS’ contracts stated that the
"contractor shall integrate commercially available off-the-shelf hardware and software
resulting in a turnkey solution for the GSA client agency." The contract line items


                                         12
consisted of professional IT services, namely computer systems analysts,
programmers, and LAN technicians. Therefore, the work was not within the scope of
their contracts.

Contract Items Not Found on Small Business SDC 8(a) Tasks. FTS officials, in both
Region 10 (for discussion, see audit report number A020144/T/5/W03001) and Region
6, issued task orders against contracts let by GSA’s Small Business SDC 8(a) Solutions
Development Center that did not procure a single contract line item that was directly
traceable to those contracts for purchases of IT as well as non-IT items.

For example, in Region 10, we examined over $6 million in task orders proposed as
other direct costs (ODCs). These task orders were issued to Information Systems
Support, Inc. (ISS) under their Small Business SDC 8(a) contract number
GS06K97BND0710. These task orders’ ODCs represented the interactive courseware
development services, software and customization ability of a larger business called
CLICK2LEARN. FTS, on behalf of the Washington Army National Guard, was using
ISS’ Small Business SDC 8(a) contract as a conduit to the services and software of
CLICK2LEARN without obtaining competition. The ODCs identified on the task orders
were not from ISS’ Small Business SDC 8(a) contract or ISS’ or CLICK2LEARN’s FSS
Schedule contracts8. Additionally, we found no evidence supporting the price
reasonableness of the ODCs. The ODCs were, therefore, unrelated to the scope, terms
and conditions of ISS’ Small Business SDC 8(a) contract.


Subcontracting

We identified several instances of Small Business SDC 8(a) contractors subcontracting
the majority of the project’s value. This included FTS directing over $53 million in sole
source orders to an 8(a) company, which then passed through 100 percent of the work
to a subcontractor, and using 8(a) contractors as order administrators to obtain the
services of other contractors identified by its military customers. A high level of
subcontracting undermines an important intent of the 8(a) program, which is to provide
small disadvantaged businesses with real work experience. Use of 8(a) contracts as a
mere conduit to other contractors is a clear abuse of the 8(a) program.

Our review of over $53 million in task orders issued to Northern NEF during FY 2001
and FY 2002 for Mediterranean harbor projects showed that 100 percent of the work
was performed by subcontractors. By reviewing purchase orders, quotes and invoices,
we ascertained that one subcontractor performed the marine installation work for the
Navy, while another firm supplied the barriers, often through another subcontractor. An
organizational chart supplied by the Navy describing the Mediterranean harbor project
did not include Northern NEF, but instead listed a subcontractor as reporting directly to
the Navy.

8
  ISS’ Small Business SDC 8(a) contract allows for additional labor categories, hardware, and software to
be provided as long as the prices are commensurate with those found in FSS Schedule 70 contracts or
their replacement schedules.


                                                  13
FAR 52.219-14(b)(1)9 (which is included in Northern NEF’s contract by reference) states
that in the case of a contract for services, at least 50 percent of the cost of contract
performance incurred for personnel shall be expended for employees of the concern. In
this instance, orders were being placed under the sole source provisions of FAR
19.805-1(a). Other firms, however, performed the work.

In another example, Force 3, Inc., under Region 6 task orders issued against Small
Business SDC 8(a) contract number GS00K97AFD2093, supplied network renovation
services to the Air Force Medical Support Agency (AFMSA). Force 3 supplied us with
data showing that 70 percent of the network renovation work was performed by ARK
Systems, Inc. AFMSA told us that ARK was used because it could work in a hospital
environment while causing minimal disruption.

Force 3 was used as a hardware supplier although its contract covers network
renovation services, while another company performed installation services. The scope
of Force 3’s contract calls for the provision of non-complex integration services under
Standard Industrial Classification (SIC) code 7373. Force 3’s contract states that the
contractor shall integrate commercially available off-the-shelf hardware and software
resulting in a turnkey system for the GSA client agency. The contract line item numbers
(CLINs) consist of professional services employees such as computer systems analysts
and LAN technicians. We found that Force 3 was procuring the hardware while another
firm was performing the majority of its network renovation tasks.10 Region 6
consistently used Force 3 as a hardware supplier. Orders placed by the CSC over the
term of the contract represented 89 percent hardware (about $38 million) and 11
percent services (about $4.5 million). This was consistent with our review of Force 3
task and delivery orders for which we could not find one cost item traceable to the
contract’s CLINs.

Split Procurements

FTS officials split procurements to ensure that the individual 8(a) task orders stayed
below the $3 million sole source threshold. Our analysis in Region 10 indicated that (i)
identical statements of work existed; (ii) purchase orders were prepared on the same
date and signed by a contracting officer within a 3-day period; and (iii) the source of
funding was identical. The task orders had values between $2,449,120 and $2,941,600.
FTS CSC officials agreed with our analysis, stating that “by failing to consider all of the
project’s requirements, FTS failed to obtain national competition under the 8(a)
Program.”



9
  The statutory basis for FAR 52.219-14 is the National Defense Authorization Act of 1987, Public Law 99-
661, section 921(c); also, amended sections 8 and 15 of the Small Business Act, codified at 15 U.S.C.,
sections 637 and 644.
10
   Hardware and software available under Force 3’s contract is that described and priced under FSS
Schedule 70 or replacement schedules for necessary work consistent with SIC code 7373.


                                                 14
In Region 6, the CSC split orders to Northern NEF to avoid the $3 million competitive
threshold for non-manufacturing orders established in FAR 19.805-1(a). Almost all of
the over $53 million in boat barrier harbor tasks we analyzed were split to avoid the
competitive threshold. Many of the task orders had values just below $3 million. The
following is an example involving marine installation activities at the Mediterranean
harbors:

    Order                  MIPR                  P.O. Date       Nature of Work           Amount
 K02TH132H00         N632X702MPPSE01              5/14/02       Parts                     $2,980,256
 K02TH133H00         N632X702MPPSE01              5/14/02       Installation              $2,946,784
 K02TH134H00         N632X702MPPSE01              5/14/02       Installation              $2,795,227
 K02TH135H00         N632X702MPPSE01              5/14/02       Installation                $343,811
 K02TH136H00         N632X702MPPSE01              5/14/02       Installation              $1,972,915
 K02TH138H00         N632X702MPPSE01              5/14/02       Parts                     $2,613,430
 K02TH139H00         N632X702MPPSE01              5/14/02       Installation              $1,524,623

The statements of work accompanying these orders were identical.

FTS officials told us they believed each order represented a discrete boat barrier
system installed at a discrete harbor, but this was clearly not the case. Each of these
task orders, issued on the same day, included parts or installation for boat barriers at
two or more harbors; thus, in our opinion, the orders should have been combined.
Further, the above orders do not include orders for the barriers themselves. Orders for
174 barriers were similarly split into three orders to avoid the $3 million competitive
threshold; each order was for 58 barriers, totaled $2.96 million, had the same funding
source, and was placed on the same day.

FAR 19.805-1(c)11 states that a proposed 8(a) requirement with an estimated value
exceeding the applicable competitive threshold amount shall not be divided into several
requirements in order to use sole source procedures for award to a single firm.

Northern NEF’s contracts with the Small Business Solutions Development Center12
were terminated on February 6, 2003, when the company was purchased by a large
business, and no longer qualified as a small business. However, the CSC has
continued to purchase boat barriers from another contractor which had no expertise in
boat barriers and whose contract also called for the provision of non-complex systems
integration under SIC 7373. We identified six orders to this company that continued the
same procurement patterns identified above: each order was for 50 barriers, was dated
February 14, 2003, had the same funding source, and was for $2,678,812.50.




11
   The statutory basis for FAR 19.805-1(c) is the Business Opportunity Reform Act of 1988, Public Law
100-656, sections 303(b) and 303(d), codified at 15 U.S.C., section 636.
12
   FTS’ Small Business SDC is now a part of the Federal Supply Service.


                                                 15
Increased Costs

In our review, we found that FTS incurred increased costs when using these
inappropriate contracts. The absence of competition and use of subcontractors led to
prices that contained multiple mark-ups and fees that could not be supported by CSC
officials, as well as problems with warranty rights and construction clauses.

Purchase of Boat Barriers. While 100 percent of the boat barrier task orders “passed
through” Northern NEF to other companies, and it performed none of the work, it still
collected a fee of 4.8 to 5 percent acting as GSA’s order administrator. The price of a
single boat barrier increased over $5,000 when Northern NEF’s fee and its
subcontractor’s fee were included for over 400 barriers. Northern NEF was able to
generate over $2.6 million in fees while other firms “recommended” by the Navy did the
work.

Our audit work showed that the prices proposed contained multiple mark-ups that the
CSC, based on the quotes provided by Northern NEF, was not aware of. The following
is an example of how prices for the boat barriers were developed:

                         Cost Element                Price
             Boat Barrier Base Price               $45,250.00
             Consultant Markup @ 7.5%               $3,393.75
             Northern NEF @ 4.8%                    $2,334.90
             Final Cost to GSA, excluding shipping $50,978.65

Region 6 issued delivery orders for at least 700 barriers to Northern NEF and one other
contractor during the period September 27, 2001 through February 14, 2003. Northern
NEF, on at least $15 million worth of these task orders, ordered the barriers through a
consulting firm. The consulting firm applied a 7.5 percent fee to the transactions
(described as General and Administrative or G&A expense), including shipping costs.
The fees amounted to over $1 million.

Northern NEF officials said they had been directed by the Navy to procure the barriers
through the consulting firm instead of dealing directly with the manufacturer. We found
documentary evidence that showed the consulting firm was the Navy’s “recommended”
contractor. However, Northern NEF was allowed to procure directly from the
manufacturer on recent orders.

We were unable to obtain from the Navy information on the additional value, if any, the
consulting firm brought to the procurements. No one in FTS knew if the base cost for
these items was fair and reasonable.

Installation of Boat Barriers. We also found that costs proposed by a subcontractor
for installation of the barriers contained fees that were unsupported. The following
example represents costs associated with a buoy, just one component of the elaborate
anchoring system:


                                         16
                                                 Large Foam Buoy
                 Subcontractor Base Cost            $31,000.00
                 Subcontractor G&A @ 9.85%           $3,053.50
                 Subcontractor Fee @ 20%             $6,810.70
                 Northern NEF Fee @ 5%               $1,961.48
                 Cost to GSA                        $42,825.68

The base costs shown above may have contained a significant mark-up. Northern NEF
officials stated that the subcontractor officials told them the 20 percent fee was an
industry standard. FTS’ files and direct questions to the responsible ITM indicated that
FTS was unaware of how proposed costs were developed. We concluded that it was
impossible for FTS to ascertain the price reasonableness of these items, as required by
the FAR, without adequate support from the contractor.

Purchase of Sonar System. We identified another example in which FTS purchased
15 Thales/Klein Sea Guardian Diver Detection Sonar Systems in a sole-source 8(a)
procurement from Northern NEF at a price of $5.4 million. We concluded that free and
open competition could have substantially reduced the prices for the sonar systems
supplied to the Navy.

Northern NEF often supplied FTS with comparative pricing information in its quotes.
Because we had concerns about the accuracy of this information, we contacted a
competitor, Kongsberg Simrad, Inc. We determined that the comparative price (reported
by Northern NEF) was inaccurate. Kongsberg Simrad sent us an official quote, using
the same parameters used by Northern NEF to the Government. Kongsberg Simrad’s
SM 2000 Swimmer Detection sonar systems were priced 40 percent less than the
Thales/Klein units supplied by Northern NEF.

We determined that another Navy organization purchased thirteen (13) SM 2000 sonar
units from Kongsberg Simrad. The University of Texas Applied Research Labs (the
Navy contractor) provided a copy of its April 22, 2003 purchase order to Kongsberg
Simrad, which substantiated the prices we received. Navy personnel said the Navy
needed sonar that would interface with its proprietary processing system and that the
SM 2000 sonar performed well and had been rigorously tested. This Navy organization
was not familiar with Thales/Klein.

Warranty Rights and Construction Clauses. We also identified other liabilities,
including lack of warranty rights to cover product defects and necessary FAR clauses
for construction work, which also resulted in increased costs. With regard to the boat
barriers, Navy officials advised us that the barriers were prone to leaks, can deflate
completely, and that defects caused barrier gates to remain open. Navy documentation
suggested that vendor representatives be sent to the Mediterranean “before the
weather gets bad and we have a real situation on our hands.” FTS may have trouble
exercising warranty rights since these items are not covered by Northern NEF’s
contracts.


                                         17
Task orders we reviewed did not contain the necessary FAR construction clauses or
follow FAR procedures for the provision of architect/engineering services.
Consequently, the Region 10 CSC has been subject to claims for increased costs
regarding violations of prevailing wage provisions under the Davis Bacon Act for task
orders issued which contained building renovation work. In one instance, the CSC paid
$161,776 to settle a request for equitable adjustment related to a Davis Bacon Act
violation. The client agency declined FTS’ request for reimbursement of the $161,776;
therefore, GSA directly paid the final invoice from the IT Fund on, or about, February 12,
2003. (For additional information on this FSS Schedule order, see Appendix B, note 6.)

Work Outside of the Contract Scope on Other Contracts

We also identified inappropriate contract scopes of work for other than small business
firms. For example, FTS officials in Region 10 contracted for the renovation of the
Ministry of Defense Conference Center in the eastern European nation of Moldova into
a modern facility based on contemporary western European standards. We determined
that about $290,000 in renovations were performed by a Moldovan architect and
general contractor. FTS officials accepted a proposal from an FSS Schedule 70 prime
contractor that did not provide detail for the substantial building renovation effort
performed. The contractor, instead of detailing the costs of subcontracting architectural
and construction work, proposed about 10,000 hours of “IT Technician” time to cover
the architectural and construction work.

In another case, Region 6, on behalf of a DOD client, Joint Program Office for Biological
Defense (JPO-BD), issued task orders for the production of antibodies and the
incorporation of these antibodies into sophisticated “hand held assays” used for the
detection of agents such as anthrax. FTS awarded over $36 million in task orders to
National Micrographics Systems, Inc. (NMS) in support of JPO-BD since May 2000.

JPO-BD officials told us that the “assays,” which were the backbone of the project,
represented “litmus strip” technology. The hand held assays are assembled in a variety
of formats. Each assay can test for up to 8 pathogens. A fluid containing antibodies is
sprayed onto the assays and the interaction of the spray with the assay indicates
whether a deadly agent is present. FTS officials acknowledged that this project was not
IT13.

FTS used NMS’ FSS Schedule contract number GS-25F-4025B to procure the
antibodies, assays and other materials and services required by JPO-BD. The contract
is for micro-photographic equipment, supplies and services such as microfilm cameras,
readers and printers, film, electronic scanner systems and other related equipment.
13
   FTS officials, when processing orders for JPO-BD, used “direct fund cite” procedures instead of
accepting a reimbursable funding document. FTS’ explanation was that the transactions did not flow
through the IT Fund and that their contracting warrants did not preclude the purchase of non-IT items.
However, we noted that about $12 million of JPO-BD work was performed on a reimbursable basis. This
work was indistinguishable from the work performed via direct fund cite procedures. Therefore, a
significant portion of the work performed for JPO-BD flowed through the IT Fund.


                                                18
Therefore, the work was not within the scope of NMS’ contract and products offered
were not found on NMS’ Schedule price list.

Further, our review found that invoicing was not in accordance with contract terms and
conditions. We reviewed 23 invoices issued during the period March 20 through
December 1, 2001. Seventeen (17) invoices submitted to GSA had pricing that was not
in accordance with contract terms and conditions, unexplained cost items not covered
by a contract modification, or an NMS fee (5 percent) not covered by the contract. The
invoice discrepancies amounted to over $1.8 million. FTS officials could not explain the
pricing contained on the invoices. JPO-BD and NMS could not provide a contractual
basis for the pricing and supplied us with documents that suggested that the contractor
and client were determining prices without the benefit of contract modification or
involvement of the CSC.

The task grew from $6,701,037 (value of NMS’ adjusted proposal on May 10, 2000) for
one year’s work to a current value of over $36,866,000 without benefit of a revised
proposal or contract modification indicating that an expanded scope of work had been
accepted. FTS added funds to the project on several occasions. A note to the file
showed that the project was for biological defense and “We will not know what the end
product is.”


Inappropriate Use of the IT Fund

As described in the examples above, CSCs have engaged in inappropriate contracting
practices to procure, on behalf of clients, services which did not meet the intent of the IT
Fund or FAR definitions. FTS officials misused contracts and the IT Fund to obtain other
services, to avoid competition, and make awards to contractors their customer agencies
wanted. 40 USC Section 322 (the statute creating the Information Technology Fund)
states that, “in operating the Fund, the Administrator may enter into multiyear contracts,
not longer than 5 years, to provide information technology hardware, software, or
services. . .” (40 USC Section 322(e)(1)). Further, the IT Fund is available “for
expenses, including personal services and other costs, and for procurement (by lease,
purchase, transfer, or otherwise) to efficiently provide information technology resources
to federal agencies and to efficiently manage, coordinate, operate, and use those
resources. . . Information technology resources provided under this section include
information processing and transmission equipment, software, systems, operating
facilities, supplies, and related services including maintenance and repair.” (40 USC
Section 322(c)(1)&(2)). Thus, we believe the above examples do not represent an
appropriate or permissible use of the IT Fund. (See Appendix D for a complete listing of
orders from Regions 4, 6, and 10 that we considered outside the scope of the IT Fund.)




                                           19
Improper Order Modifications Extended the Time Period for Re-Competition and
Resulted in Cost Growth

Competition concerns do not end after task order award. The CSCs perpetuated non-
competitive situations by processing multiple modifications to task orders, adding work
and extending the time the contractor had to complete the task. In many cases, the
modifications were improper because they (1) added work and option periods that were
not consistent with the original statement of work (SOW), (2) exercised task option
years without performing the requisite analyses per FAR 17, or (3) extended the period
of performance of the task without appropriate justification. Examples follow:


Eglin Air Force Base (AFB)/Tybrin. We reviewed a task order placed by Region 6 to
Tybrin Corporation (Tybrin) on behalf of Air Armament Center (AAC), Eglin Air Force
Base. The scope of the contract was to provide ancillary software engineering services
to AAC’s Test and Analysis Division. The time and materials task order, placed under
Tybrin’s professional engineering contract number GS-23F-0109K, had a value of
$11,300,448. The period of performance was February 5 through December 31, 2001.

Tybrin’s task grew from $11.3 million to over $58 million dollars without competition as
shown by the table below:

                                 Period of
                    Value      Performance                       Reason
 Initial Award   $11,300,448 2/5/01 – 12/31/01
 Mod. 3                                          Revised SOW lists specific sub-tasks not
                  $3,343,550 7/9/01 – 12/31/01   defined in original SOW.
 Mod. 7          $24,870,597 1/1/02 – 12/31/02   Exercised option year 1
 Mod. 20         $18,805,641 1/1/03 – 12/31/03   Exercised option year 2
        Total    $58,320,236

Modification 3 reflected the fact that, on October 31, 2000, Air Force officials stated,
“Requirements will not be well-defined until later; but we need to have a contract in
place beforehand.” Modifications 7 and 20 added option years, which quadrupled the
value of the task. These contracting actions were improper because the original
statement of work did not contemplate option periods, nor did Tybrin’s original proposal
contain option years. Although the exercise of the first option year tripled the value of
the task order, the contracting officer stated that there was no scope change and that
the contractor was not required to submit a revised technical proposal.

A contract modification that goes beyond the scope of a contract is tantamount to a sole
source award that may not be justified. Accordingly, competing contractors can
successfully protest such modifications if GAO determines that the modification
constitutes a material difference that potential offerors would not have reasonably
anticipated.




                                          20
In addition, neither FTS nor customer agency personnel could support the labor costs
proposed by Tybrin. An agency official stated that “Price reasonableness has been
assessed in accordance with FSS Ordering Guidelines,” but we did not identify any
documentation showing that the ceiling price (including level of effort or mix of labor)
was determined to be fair and reasonable.14 FTS officials relied on e-mail
correspondence from customer agency officials stating that they had reviewed the
contractor’s proposal and had no problem with it. We do not feel this is adequate
support for the millions of dollars in proposed costs.

Air Force/Comnet. In 2001, the Region 6 CSC awarded Task K01MM060S00 on a
sole-source basis to Comnet Sciences for $530,879 over a three-year period, for work
outside the original task scope. Comnet was the incumbent contractor for this work for
Web and database solution development and maintenance support services for the Air
Force. Less than three months after award, the CSC issued a modification adding 14
individuals amounting to a $2,044,942 increase. The modification extended the period
of performance by three months with no explanation or consideration. In April 2003, the
CSC again modified the task to add 11 more individuals at a cost of $1,000,555. Both
of the modifications were improper because they constituted work outside the scope of
the original task. Two different Region 6 contracting officers were involved with the
second modification of $1,000,555. The file shows that the contracting officer who first
received the modification did not approve it, stating her reasons in an e-mail to the ITM:

       “Mod #1 adds fourteen labor categories and changes the period of performance.
       This was way outside the original scope of this task order. You cannot add
       fourteen individuals to an order that was originally for one person.

       Mod #5 is to add eleven more employees and adds $1,000,554.50. This task
       order needs to be cancelled.”

The ITM subsequently requested the contracting office send the modification to a
different contracting officer – the one who approved the first modification adding 14
people for $2,044,942. The second contracting officer signed the modification and
could not explain to us how he resolved the issues raised by the other contracting
officer. (See Appendices A, B, and C for additional examples of improper task
modifications and cost growth.)

Department of Energy/Unisys. In 1999, the Region 6 CSC awarded a time-and-
materials task for data systems for the Department of Energy to Unisys for $110,897 for
a period of performance ending January 31, 2000. The CSC subsequently processed
multiple modifications that extended the performance period and added labor and
materials, increasing costs ten-fold. By April 2003, the task value approached $1 million.
The documentation related to one of the modifications states,


14
    We reviewed Tybrin’s Blanket Purchase Agreement (BPA) number GS06T01BNA0113, issued in
support of Eglin AFB, and determined that the prices proposed were in accordance with the BPA’s price
list.


                                                21
          “This modification is to extend the period of performance and add labor
          hours and materials . . . Customer will loose [sic] funds if we do not
          extend project.”

These and other situations we identified (see Northern NEF example discussed
previously) suggest that the CSCs need to give increased emphasis to task
administration, particularly for larger, more complex tasks. Not only do these conditions
lead to uncontrolled cost growth but they also increase the likelihood the Government
will become dependent upon one contractor for future similar tasks and thus decrease
the opportunity for competition. The CSCs must be alert to fostering extended sole-
source situations that deprive the Government of leverage in the marketplace.

Extensions to the task performance period should be the exception versus the rule. If
the CSC does not ensure that there is a legitimate reason for the extension(s), the
contractor may not be providing the best value to the Government.


Frequent Use of Time and Materials Tasks

We found that the CSCs frequently used time-and-materials tasks versus fixed-price
task orders. Of the 147 orders for services that we reviewed, 63 percent were time-and-
materials type tasks. A time and materials contract provides for acquiring services on
the basis of direct labor hours at fixed hourly rates and materials at cost. Time-and-
materials task orders are expressly disfavored under the FAR. The FAR states that a
time-and-materials contract provides no incentive to the contractor for cost control or
labor efficiency, and thus appropriate Government surveillance of contractor
performance is required to give reasonable assurance that efficient methods and
effective cost controls are being used.




FAR 16.601 states, in part:

      “A time-and-materials contract may be used only when it is not possible at the
      time of placing the contract to estimate accurately the extent or duration of
      the work or to anticipate costs with any reasonable degree of confidence, and

      A time-and-materials contract may be used (1) only after the contracting officer
      executes a determination and findings that no other contract type is suitable; and
      (2) only if the contract includes a ceiling price that the contractor exceeds at its
      own risk. The contracting officer shall document the contract file to justify the
      reasons for and amount of any subsequent change in the ceiling price.”

When time-and-materials contracts are improperly awarded and managed, unrestrained
cost growth can occur, as illustrated in the time-and-materials task orders described in
the previous section.



                                             22
Documentation Lacking to Assure Reasonable Pricing

In addition to the problems we identified in improper contracting practices, for a majority
of the orders for IT services that we reviewed (63 percent), we could not find
documentation supporting that the Government received a fair and reasonable price.
The documentation did not show how FTS officials followed FSS Ordering Procedures
for Services to ensure fair and reasonable price, or how the CSCs made an attempt to
negotiate better pricing when processing and awarding orders.


FSS has developed a set of ordering procedures for services placed against its
Schedule contracts, which includes provisions for obtaining competition for task orders,
as well as considering the level of effort and labor mix in making a determination as to
whether the total price is fair and reasonable. Excerpts from these procedures follow:



       ORDERING PROCEDURES FOR SERVICES (Requiring a Statement of Work)

       “FAR 8.402 contemplates that GSA may occasionally find it necessary to establish
       special ordering procedures for individual Federal Supply Schedules or for some
       Special Item Numbers (SINs) within a Schedule. GSA has established special
       ordering procedures for services that require a Statement of Work. These special
       ordering procedures take precedence over the procedures in FAR 8.404 (b)(2)
       through (b)(3).

       GSA has determined that the prices for services contained in the contractor's price
       list applicable to this Schedule are fair and reasonable. However, the ordering
       office using this contract is responsible for considering the level of effort and mix of
       labor proposed to perform a specific task being ordered and for making a
       determination that the total firm-fixed price or ceiling price is fair and reasonable.

       The request should be provided to three (3) contractors if the propsed order is
       estimated to exceed the micro-purchase threshold, but not exceed the maximum
       order threshold. For proposed orders exceeding the maximum order threshold, the
       request should be provided to additional contractors that offer services that will
       meet the agency’s needs.

       For agency requirements in excess of the micro-purchase threshold, the order file
       should document the evaluation of Schedule contractors’ quotes that formed the
       basis for the selection of the contractor that received the order and the rationale for
       any trade-offs made in making the selection.”

The CSCs did not ensure compliance with the special ordering procedures.
Specifically, the CSCs did not ensure that task order documentation reflected an
evaluation of labor mix and level of effort. CSCs sometimes accepted brief e-mails from



                                               23
clients as evidence that complex and detailed contractor proposals were evaluated for
best value, including price reasonableness.




Questionable Contracting Practices

FTS’ lack of oversight over its task and delivery orders resulted in several questionable
practices involving customers and contractors, including conflicts of interest,
unsubstantiated costs that were also questionably allocated, incorrect pricing
memoranda, improper substitutions of key personnel, nonperformance of basic contract
deliverables, and improper handling of research and development tasks.


Conflict of Interest

Region 6, during fiscal years 2001 through 2002, issued tasks to Northern NEF in
support of the Navy for a “security specialist.” The consultant was to monitor electronic
security systems, represent the Navy in force protection meetings, participate in
vulnerability assessments, and prototype equipment. The security consultant was a
company in Alexandria, Virginia with one employee.

Northern NEF, under tasks issued by FTS, purchased over $15 million in harbor barriers
(previously discussed) from the security consultant. The Navy did not respond to
requests for information about the value added to these procurements by this
consultant. However, we did determine that the consultant received about $1 million in
fees and that Northern NEF later purchased barriers directly from the manufacturer.

We do not know if the security consultant recommended the barrier system to the Navy.
However, we feel that an inherent conflict of interest existed when the consultant firm
was allowed to fulfill two conflicting roles: one as a security consultant to a GSA client
and the other as a subcontractor procuring expensive security hardware for that client.

Unsubstantiated Shipping Charges

A subcontractor submitted an invoice for $493,000, an amount that represented
“Additional shipping costs due to requirement of U.S. Flag carrier.” The shipping
charges were allocated in the following manner:

                    Shipping Charges
         Task Order   With 5% Fee    New Task Order Value
         Task No. 2     $52,469.49      $2,999,253.17
         Task No. 3     $19,188.20      $2,999,443.96
         Task No. 4    $385,444.51      $2,998,874.61
         Task No. 5     $60,547.80      $1,585,170.43



                                          24
In three of four instances, the shipping charges were allocated so as not to exceed the
$3 million 8(a) competitive threshold. Contractor officials stated this was a coincidence.

We asked for documentation showing that the shipping charges were indeed incurred
and that the charges were properly allocated. FTS and the contractor could not provide
the necessary support.15 Navy officials signed a receiving report in all four instances (a
receiving report prepared by the contractor). However, Navy officials did not respond to
our requests to provide the Office of Inspector General or the contracting officer with the
documents they relied on when they accepted and allocated the charges.

We concluded that the shipping charges were unsupported.


Incorrect Price Negotiation Memoranda

The Region 6 CSC, during the period March 2000 through May 2002, issued at least 11
client specific indefinite quantity and indefinite delivery (IDIQ) contracts to System
Studies and Simulation, Inc. (3S), an 8(a) contractor. The contracting officer required
3S to certify that the pricing proposed was equal to, or better than, GSA Schedule
prices. We found that, in many instances, the labor rates 3S proposed were
substantially higher than 3S’ own Federal Supply Schedule contract. The price
negotiation memoranda associated with these IDIQ contracts indicated that a check of
FSS Schedule prices had occurred and that it was part of the rationale for determining
that the contract prices were fair and reasonable.

We concluded that the Price Negotiation Memoranda were materially in error, since
basic price checks did not occur.

Improper Key Personnel Substitutions

We noted instances where contractors’ key personnel may not have been performing on
the task or may have been substituted without notifying the contracting officer.

For example, Illinois Institute of Technology Research Institute (IITRI), in its proposal to
the Government, specified key personnel proposed to work on a task for the Air Force,
which had an order value, during our review, of over $14 million. Our analysis of the
contractor’s time accounting records showed that certain of these key personnel had not
worked on the project and that a substitution occurred in the project
management/program manager function without notifying the CSC. The time and
accounting records left doubt as to whether the key program manager was, in fact, still
employed by IITRI.

We asked the contractor, through FTS officials, for documentation that the key
personnel were working on the task or that proper substitutions were made. The SOW

15
     The contractor paid the subcontractor on the basis of the subcontractor’s invoice and then billed FTS.


                                                     25
required that key personnel be identified and that removals had to be approved by the
contracting officer. Despite repeated attempts, the contractor did not provide us the
documentation. The requirements contained in the SOW were not met.

Basic Contract Deliverables Not Provided

FTS personnel rely heavily on customer agency personnel to administer task orders.
Due to the high dollar value of one order (over $58 million) awarded to Tybrin
Corporation, on behalf of the Air Force, we requested specific task deliverables,
including the following:

   •   Names and resumes of personnel assigned to specific tasks. Per the contract,
       this information was to be provided to FTS, along with documentation satisfying
       the employee expertise requirement;

   •   Staffing reports required by the contract, which were to be used to support
       invoicing from Tybrin to GSA;

   •   Supporting documentation for over $10,000 in relocation costs invoiced by
       Tybrin. We tested these costs because Tybrin incurred over $355,000 in
       relocation costs on this contract.

However, the contracting officer’s representative (with the Air Force) did not provide us
with the contract deliverables, in some cases stating that the information was
“sensitive.”

Research and Development Tasks

We noted two instances where Region 6 engaged contractors to perform tasks that
contained a substantial research and development component. In at least one instance,
we do not believe that FTS employed the proper procurement methodology.

FTS officials in Region 6 accepted an engineering and aeronautical services
requirement on behalf of the Department of Defense Counter Drug Technology
Development Program Office (Counter Drug Program Office). The task called for the
procurement of parts, modification of aircraft, familiarizing foreign military personnel with
airborne surveillance, radar operations and maintenance, and engineering and flight
services.

The Region 6 CSC selected Air Park Sales and Service, Inc. (Air Park) of California,
Maryland to perform the work. The task order was written against FSS Schedule
contract number GS-24F-0027L, which provided for airborne platforms for research,
development, test and evaluation services. The time and materials task, which runs
from August 2002 until August 2007, has an estimated value of over $5.6 million.




                                            26
The SOW showed that the task contained a research and development component, and
Air Park’s president advised us that 60 to 70 percent of the work performed under the
task was research and development.

Procurement Not Consistent With FAR 35. FAR 35 prescribes policies and
procedures applicable to R&D contracting in order to protect the Government’s
interests. For example, FAR 35.006 lists and defines at least six evaluation factors
recommended for use in determining the most technically competent contractor. The
evaluation factors accompanying the Counter Drug Program Office SOW included only
“Technical Approach” and “Cost”. In addition, FAR 35.011 states that R&D contracts
shall specify the technical data to be delivered under the contract. The SOW was not
specific in the data and reports required, given the contractor’s explanation of what the
work entailed.

Further, FAR 35.006 states that, due to the absence of precise specifications and
difficulties in estimating costs, cost reimbursement contracts are usually appropriate for
R&D contracts. FTS officials ordered this work on a time and materials basis from an
FSS Schedule contract. A time and materials contract provides for acquiring services
on the basis of direct labor hours, which include wages, overhead, G&A, and profit.
There is no incentive on a time and materials task to control costs, especially the
amount of hours spent on the task. Cost-reimbursement contracts can take the form of
incentive contracts, which reward the contractor for contract excellence. For example, a
cost-plus-award-fee contract is a cost reimbursement contract that provides for a fee
consisting of a fixed base amount and an award amount that is sufficient to provide
motivation for excellence in such areas as quality, timeliness, technical ingenuity, and
cost-effective management. FAR 8.401(a) states that the Schedule program provides
agencies with a simplified process for obtaining commonly used commercial supplies
and services at prices associated with volume buying. Accordingly, this procurement,
which contained a predominate R&D component, was not made in accordance with
applicable regulations.


Causes of Improper Procurement Practices

Our audit work indicated that several factors contributed to the improper contracting
practices we identified: an ineffective system of internal management controls, CSC
personnel sacrificing adherence to proper procurement procedures in order to
accommodate customer preferences, and an excessive focus on customer satisfaction
and revenue growth. Some customers were motivated to use CSCs because they knew
that they could obtain supplies and services (some of which had little or no relationship
to IT) from the vendors they preferred in an expeditious manner. Also, CSC personnel
were not generally familiar with prescribed ordering procedures, contracting officers did
not always adhere to proper procurement procedures designed to ensure the
Government receives the best value, and CSC personnel generally lacked the expertise
to properly evaluate contractor proposals.




                                          27
Lack of management oversight at the CSCs was most strongly evidenced by an
environment of client-driven decisions. The CSCs relied heavily upon client agencies
for bidders lists, proposal evaluations, and task administration, including the propriety of
task modifications that increased costs and/or extended the time period for completion
of the task. In Region 6, this environment undermined the authority of some contracting
officers. We noted multiple instances where ITMs routinely questioned and disregarded
contracting officers’ instructions and authority. For example, if an ITM or client did not
like the decision of the contracting officer, some ITMs would “shop” for another
contracting officer that they believed would process the procurement action, or the ITM
or customer would solicit the intervention of the division director or higher level CSC
official. In most cases, the result was that the action was processed. Effective
management controls should have existed to prevent these activities.

In addition, our audit work indicated that the CSCs were generally not familiar with
FSS’s special ordering procedures for services under the Schedules program. For
example, in Region 4, the CSC management’s response to our findings on specific
tasks took exception to our conclusion that the file documentation did not substantiate
that the price was fair and reasonable, citing FAR 8.4, which states that GSA Schedule
orders do not require a separate determination of fair and reasonable pricing. However,
the FAR also states that GSA may establish special ordering procedures, as discussed
previously. GSA’s Website16 on the use of FSS Schedules describes these procedures
in detail.      GSA also published the procedures in the Multiple Award Schedules
Owner’s Manual for ordering agencies. We also identified that contracting officials lack
technical ability to evaluate contractor proposals for level of effort and labor mix.

In November 2000, the General Accounting Office (GAO) reported similar findings17 and
recommended that the Office of Federal Procurement Policy (OFPP) revise the FAR to
incorporate the requirements in GSA’s ordering procedures for services to obtain
competitive quotes. GAO also stated in their report that the FAR should clarify the
procedures for placing sole-source orders using Schedules. The proposed FAR rule,
published in April 2003, had not been finalized as of October 2003.

ITMs and contracting officers also told us that they did not have the expertise to
evaluate contractor proposals for best value; accordingly, they relied on the client to
make this determination. We recognize that FTS contracting officials should involve
the client during the procurement process, including proposal evaluations. However, as
the procurement office, the CSC is still responsible for the evaluations and ensuring that
they are sufficiently supported.




16
 http://apps.fss.gsa.gov/schedules/ordinssv.cfm dated 9/19/00.
17
  GAO-01-025 (11/28/00) Contract Management: Not Following Procedures Undermines Best Pricing
Under GSA’s Schedule


                                            28
Culture of Revenue Growth Within FTS

A culture within the CSCs, which emphasized revenue growth and customer satisfaction
contributed to the problems we identified. The CSCs have experienced substantial
revenue growth over the last several years. Key FTS employees were rewarded for
increasing sales. For example, the Region 10 CSC revenue increased from $53 million
in 1998 to $522 million in 2002. One key Region 10 CSC associate received cash
awards justified on the basis of increasing sales, and another key Region 10 associate
received a promotion and a retention bonus for increasing sales. Certainly, business
growth and customer satisfaction are very worthwhile goals; however, there needs to be
a more balanced focus, which also emphasizes the adherence to proper procurement
rules and regulations. In a previous audit on GSA’s Awards System, we identified that
FTS overall distributed awards more frequently and for a higher dollar value, compared
to other GSA Services and Staff Offices.

In December 2001, the Assistant Commissioner for IT Solutions issued a memorandum
to all FTS Assistant Regional Administrators and IT Solutions Directors entitled
“Growing the Business Responsibly.” In the memorandum, the Assistant Commissioner
discussed increasing the volume of contracting activity while at the same time utilizing
good contracting practices and promoting competition. Despite this formal, top-level
direction, a culture that emphasized revenue growth persisted, resulting in numerous
improper contracting practices that we found continued after the memorandum was
issued.


Performance Measures

We also determined that FTS performance measures for IT Solutions do not adequately
assess the competitive environment. Our review found that, although the performance
measure program is in a state of refinement and improvement, performance measures
intended to foster competition have not always produced the desired result. Our review
found that these measures, especially those falling under the category “foster
competition”, had limited scopes, were determined to be more appropriate as
management information, or produced unreliable results.

The performance measures in question were as follows:

FTS measure 3-4 TF: Percent of task and delivery orders subject to fair opportunity.
This measure was included in the category “foster competition”. This measure, while
very worthwhile in light of FAR 16.505(b)(1), was limited in scope. It addressed only
orders placed under FTS Government-wide Acquisition Contracts (GWACs). This
performance measure was in effect during both FY 2002 and FY 2003.

FTS measure 3-1 TF: Percent of total number of awards and dollars obligated for FSS
Schedules, FTS GWACs and Other Contracts. This measure was included in the
category “foster competition”. This measure, in place during FY 2002, was deemed
inappropriate as a performance measure by FTS officials. FTS officials decided that the


                                         29
amounts of dollars going to a particular contract vehicle was useful management
information, but not appropriate as a performance measure since it could steer solutions
to particular vehicles. The primary driver was to ensure the right IT solution for the
customer, rather than a particular contracting vehicle.

FTS measure 3-3 TF: Percent of total number of awards and dollars where single bid is
received for FSS Schedules, FTS GWACs and other contracts. This measure, in place
during FY 2002, was deemed inappropriate as a performance measure by FTS officials.
FTS officials reasoned it is useful management information, but not appropriate as a
performance measure since receiving a single bid does not by itself indicate the
competitiveness of the process. In addition, the data for FSS Schedules was not
available. Our review indicated that the data would include legitimate sole source and
directed 8(a) procurements.

FTS measure 10-11 TF: Percent of dollar savings between independent Government
cost estimates (IGCEs) and award amounts. This measure was in place during FY 2002
and FY 2003. In FY 2003, this measure supports the goal “Operate efficiently and
effectively.” FTS officials conceded that this measure does not sufficiently evaluate the
savings agencies realize by using the IT Solutions program. Our own analysis
concluded that the reported results could be unreliable. IGCEs are not required by the
FAR, therefore, many tasks have no IGCE prepared. IGCEs may cover the base and
option years, while the award may cover only the base year, thus severely overstating
the results. IT Solutions is continuing to use this measure while a study is conducted to
improve program performance measures.

Conclusions

We identified improper task order and contract awards involving millions of dollars that
breached procurement laws and regulations and on a number of occasions were well
outside the Information Technology Fund’s legislatively authorized purposes. (Our
report details a number of key examples of inappropriate task orders and the
appendices provide information on many other examples.) Our findings involve
numerous instances of sole source awards, misuse of the small-business 8(a) program,
out of scope task orders, and misuse of the IT Fund that are inconsistent with the main
precepts of competition and Government contracting. CSCs made little attempt to
secure competition, overly relied on client agency justifications for sole source
procurements, improperly modified orders, and frequently used time and materials task
orders inappropriately.

As a result, the CSCs did not provide reasonable assurance that client agencies
received the most cost-effective solution and best value, and the fundamental objectives
underlying the federal procurement process were not achieved. The factors contributing
to these circumstances are fundamental weaknesses within the CSCs involving
ineffective management controls, CSC personnel sacrificing adherence to proper
procurement procedures in order to accommodate customer preferences, and a culture
that stressed client satisfaction and revenue generation over adherence to proper



                                          30
procurement procedures. In Region 10 alone, CSC revenues increased almost ten-fold
during the period of 1998 through 2002, and key FTS employees were rewarded for
increasing sales. An overemphasis on revenue growth and permitting clients to unduly
influence task order awards, without commensurate attention to procurement laws and
regulations, increased the vulnerability of the program to fraud, waste and abuse.

We believe that steps to remedy these problems require a comprehensive, broad-based
strategy that focuses on the structure, operations and mission of the CSCs as well as
the control environment. But these efforts will only be successful if FTS ensures that its
strategy changes CSC personnel’s view of how success of the program is defined.
Reward systems and performance measurement systems should be better balanced to
include strong incentive for accountability and proper procurement practices, and the
associated positive outcomes.


Recommendations

We recommend that the Commissioner of FTS:

   1. Perform a detailed analysis of the factors contributing to the problems identified,
      including an ineffective system of internal management controls, CSC
      personnel’s lack of adherence to proper procurement procedures, and an
      overemphasis on revenue growth and client-driven decisions.

   2. Based on this analysis, determine what changes are needed in the structure,
      operations and mission of the CSCs, mix of resources, and management control
      processes to align policies and procedures with laws and regulations and GSA’s
      own core values in ensuring the Government obtains best value, and develop a
      time-phased action plan to implement these changes.

   3. Develop additional performance measures for the CSCs that promote
      competition and other sound procurement practices.


Management Response

The Commissioner, FTS, concurred with the recommendations in the report. She
stated that FTS has begun to implement a series of actions and initiatives to improve
acquisition quality and integrity across the organization. She also stated that GSA and
FTS management are working together to review the CSC operations, adjust goals, and
take strong actions to remedy problems. The Commissioner’s response to the draft
report can be found in Appendix E.




                                          31
Internal Controls

We assessed the internal controls relevant to the CSCs' procurements to assure that
the procurements were made in accordance with the FAR and the terms and conditions
of the contracts utilized. We identified improper procurement practices, including
improper sole source awards, misuse of small business contracts, work outside the
contract scope, misuse of the IT Fund, improper order modifications, frequent use of
time and material contracts, and not enforcing contract provisions or following
acquisition regulations. We believe that an effective internal control structure, which
has the on-going endorsement of management, would have identified and prohibited
many of the inappropriate task orders we reviewed.

Additionally, given the magnitude of the problems under review, the control environment
did not provide reasonable assurance that misapplication of customer agency funds
would be prevented. Therefore, we concluded that the internal controls that were
established were not always effective and did not provide assurance that Government
funds were reasonably protected.




                                         32
                                                                                                                       APPENDIX A

                            AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                   CLIENT SUPPORT CENTERS
                               REPORT NUMBER A020144/T/5/Z04002

                         SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                                       Service
                                          Client         or                                                            Value of
         Order #     Order Date        Organization   Commod     Vehicle                     Contractor                 Task            Notes

   Region 6 Orders
 1 K00AM010S00         9/29/2000   Treasury              S         8(a)     NTMI                                       $    1,763,564    1
 2 K03MT162S00         5/29/2003   DOD                   S        MAS       Powerware Corporation                             674,774    2
 3 K99KM023S00         9/30/1999   Energy                S        MAS       Unisys                                            989,676    3
 4 K03EH081S00         5/20/2003   Navy                  S         8(a)     OTS/IPS Meteostar                                 102,556    4
 5 K03MT005S00         10/9/2002   Air Force             S        MAS       CMS                                            12,958,224
 6 K02MS006S00        11/30/2001   Army                  S        MAS       Gradkell                                        7,137,396
 7 K03HH058S00          5/7/2003   Army                  S        MAS       BearingPoint                                      969,456    5
 8 K03SW170H00         5/29/2003   Air Force             C        MAS       Dell                                           10,343,860
 9 K03CW501F00         3/27/2003   Air Force             S        MAS       Dyncorp                                        26,920,502     6
10 K01HS017S00         3/15/2001   Air Force             S        MAS       Sverdrup                                          196,201     7
11 K03KH328S00         3/31/2003   Air Force             S        MAS       Simulation Support                              1,564,816     8
12 K01MM060S00          6/1/2001   Air Force             S        MAS       Comnet                                          6,210,807     9
13 K03HH068S00          8/1/2003   Army                  S        MAS       Enterprise Integration, Inc.                   21,008,292    10
14 K03SW048S00        11/27/2002   Air Force             S        MAS       Frontline                                         538,527    11
15 K01SW053S00         7/17/2001   Air Force             S        MAS       Presidio                                        1,357,653    11
16 K03SW063S00        12/16/2002   Air Force             S        MAS       Frontline                                         450,573    11
17 K03SW092S00         1/28/2003   Air Force             S        MAS       Frontline                                         894,953    11
18 K03SW119S00          3/7/2003   Air Force             S        MAS       M2 Technologies                                   127,693    11
19 K03SW132S00          4/2/2003   Air Force             S        MAS       Presidio                                          521,710    11
20 K03HH007S00         2/26/2003   Army                  S        MAS       Titan Corp.                                     1,072,840    12
21 K02KA034S00          8/1/2002   Army                  S        MAS       KPMG                                              524,795    13
22 K03HH052S00       Not Awarded   Army                  S       SDC 8(a)   UHD/Gartner                                        94,986    14
23 K03HH053S00         3/14/2003   Army                  S        MAS       UHD/Gartner                                        58,395    14
24 K02MM043S00         9/26/2002   Air Force             S        MAS       STR LLC                                           668,219
25 K02SS310S00         8/12/2002   Army                  S        MAS       Morgan Research                                 7,763,100    15
26 K01JC047F00         5/31/2001   Air Force             S        MAS       ACS Government Solutions                          659,271    16
27 K02AM033S00         8/29/2002   HHS                   S        MAS       Human Factors International                       527,958    17
28 K02KH052S00        12/24/2002   Air Force             S        MAS       SAIC                                              869,943    18
29 K02KH054S00        11/21/2002   Air Force             S        MAS       Systems Research and Applications Corp.           257,786    19
30 K03KH324S00         3/20/2003   Air Force             S        MAS       Anteon                                            462,869    20
31 K01BF024S00         3/12/2001   DOD                   S        MAS       Aegis Research Corporation                     18,348,135    21
32 K02SW005S00         11/5/2001   Air Force             S        MAS       The Presidio Corporation                        2,487,188    11
33 K00TJ031S00          5/3/2000   DOD                   S        MAS       National Micrographics Systems, Inc.                    -    22
34 K00TJ031S01                     DOD                   S        MAS       National Micrographics Systems, Inc.                    -    22
35 K00TJ031S02                     DOD                   S        MAS       National Micrographics Systems, Inc.                    -    22
36 K00TJ031S03                     DOD                   S        MAS       National Micrographics Systems, Inc.           36,866,711    22
37 K00SU028S00         2/1/2001    Air Force             S        MAS       Tybrin Corporation                             58,320,236    23
38 K00MM209S00        9/30/2000    Air Force             S        MAS       Illinois Institute of Technology               14,421,245
39 K02YSXOIRS02       1/17/2002    Air Force             S        MAS       Riverside Research Institute                    8,060,240    24
40 K01HH122S00        6/28/2001    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,979,973    25
41 K01HH123S00        6/28/2001    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,994,600    25
42 K02HH023S00       12/27/2001    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,993,677    25
43 K02HH162S00        7/12/2002    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,988,340    25
44 K02HH163S00        7/10/2002    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,985,498    25
45 K02HH164S00        7/10/2002    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,998,765    25
46 K02HH199S00         9/4/2002    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,999,552    25
47 K02HH200S00         9/4/2002    Army                  S       SDC 8(a)   Maden Tech Consulting, Inc.                     2,992,337    25
48 K00BN027S00        7/31/2002    Navy                  S        MAS       Airpark Sales and Service, Inc.                 5,615,519    26
49 K00BN062S00       9/25/2000     Navy                  S        MAS       Systems Research and Applications Corp.         7,761,150    27
50 K02SW061S00        2/19/2002    Air Force             S       SDC 8(a)   Force 3, Inc.                                   1,351,490    26
51 K02SW117S01        7/11/2002    Air Force             S       SDC 8(a)   Force 3, Inc.                                     744,996    26
52 K02SW115S01        7/10/2002    Air Force             S       SDC 8(a)   Force 3, Inc.                                      68,508    26
53 K01MM049S00         5/9/2001    Air Force             S        MAS       Science Applications International Corp.        1,534,532




                                                                 33
                                                                                                          APPENDIX A

                        SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                                       (Continued)

                                                    Service
                                       Client         or                                                     Value of
       Order #      Order Date      Organization   Commod          Vehicle                Contractor          Task          Notes

 54 K02TH141H00      5/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,956,762    26
 55 K02TH140H00      5/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,956,762    26
 56 K02TH142H00      5/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,956,762    26
 57 K02TH143H00      5/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                1,274,748    26
 58 K02TH139H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                1,524,623    26
 59 K02TH138H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,613,430    26
 60 K02TH135H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                  343,811    26
 61 K02TH134H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,795,227    26
 62 K02TH133H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,946,784    26
 63 K02TH132H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,980,256    26
 64 K02TH136H00     5/14/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,567,232    26
 65 K01TH175H00     9/27/2001    Navy                              SDC 8(a)   Northern NEF, Inc.                1,436,455    26
 66 K01TH175H01     9/27/2001    Navy                              SDC 8(a)   Northern NEF, Inc.                2,737,272    26
 67 K01TH175H02     9/27/2001    Navy                              SDC 8(a)   Northern NEF, Inc.                2,886,518    26
 68 K02TH020H00     1/30/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                  473,228    26
 69 K02TH246H00     11/18/2002   Navy                              SDC 8(a)   Northern NEF, Inc.                1,942,500    26
 70 K02TH245H00     11/18/2002   Navy                              SDC 8(a)   Northern NEF, Inc.                2,913,750    26
 71 K02TH059H00     8/19/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,870,331    26
 72 K02TH164H00      9/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,332,532    26
 73 K02TH164H01      9/9/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                  598,880    26
 74 K02TH172H00     7/25/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,659,121    26
 75 K02TH172H01     7/29/2002    Navy                              SDC 8(a)   Northern NEF, Inc.                2,756,250    26
 76 K02TH256H00     1/24/2003    Navy                              SDC 8(a)   Northern NEF, Inc.                  858,488    26
 77 K02TH255H00     1/24/2003    Navy                              SDC 8(a)   Northern NEF, Inc.                2,711,194    26
 78 K03TH060H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26
 79 K03TH061H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26
 80 K03TH062H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26
 81 K03TH063H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26
 82 K03TH064H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26
 83 K03TH065H00     2/14/2003    Navy                              SDC 8(a)   RMES Communications, Inc.         2,678,813    26


   Region 6 Total                                                                                         $356,369,881       28



Notes:

         1. This task was initially awarded to NTMI, an 8(a) firm, as a follow-on project for testing of laptop
            computers in September 2000 for $491,936. The CSC processed four modifications that
            added work to the task that was beyond the scope of the original task. By May 2003, the task
            value had more than quadrupled to $1.8 million. The documentation indicated that the most
            recent modification was issued to “burn remaining funds.”

         2. This task was issued on a sole source basis to Powerware Corporation. We determined that
            at least three other Schedule contractors could have performed the work. See discussion of
            this order in the body of the report.

         3. This task related to data systems for energy management was awarded to Unisys in 1999 for
            $110,897 with a period of performance ending January 31, 2000. The Region 6 CSC
            processed multiple modifications that extended the performance period and increased costs
            ten-fold. The documentation related to one of the modification states, “This modification is to
            extend the period of performance and add labor hours and materials . . .Customer will loose
            [sic] funds if we do not extend project.” By April 2003, the task value approached $1 million.




                                                              34
                                                                                      APPENDIX A

              SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                         (Continued)

4. This time and materials task was awarded to Office Technology Systems, a Small Business
   SDC 8(a) contractor, who was subcontracting the work to another company, IPS MeteoStar.
   This constituted a pass-through situation in taking advantage of the sole-source provisions of
   FAR 19.805-1.

5. The ITM originally competed this time and materials task among three Schedule contractors
   but received only one bid. Subsequently, the ITM improperly processed the order as a sole
   source task to Bearing Point and sent it to a different contracting officer for signature in order
   to avoid the competition requirements of Section 803.

6. This was a sole-source, time and materials task awarded to DynCorp. We concluded that the
   client’s justification for limiting the competition was adequate. However, the documentation
   supporting the evaluation of the proposal for fair and reasonable pricing was insufficient for
   this $27 million buy. The only documentation we found to support the award was a client e-
   mail stating, “I have reviewed the labor portion of the proposal and agree to the scope and
   effort identified.” The CSC made no attempt to obtain additional discounts, even though value
   was well in excess of the MOT.

7. In March 2001, the CSC awarded task K01HS017S00 for $37,285 on a sole-source basis to
   Sverdrup Technology, Inc., to facilitate warfighter analysis workshops for the Air Force. The
   Air Force’s justification for restricting competition was insufficient. In addition, the statement of
   work contained no provision for option years. As of April 2003, the CSC had improperly
   issued multiple modifications that added workshops and option periods and increased the task
   value to nearly $200,000.

8. The task value includes the base year and four option periods. The documentation indicates
   that despite soliciting 21 vendors, only one contractor submitted a proposal (Simulation
   Support). The CSC contacted several of the contractors to determine the reasons they did not
   bid, and the contracting officer properly prepared a Determination and Findings document to
   support the award.

9. The Air Force’s reasons for restricting competition to Comnet were insufficient for this time
   and materials task for Web and database solution development. In addition, the CSC
   processed improper modifications. This task is discussed in detail in the body of this report.

10. The CSC awarded this time and materials task for a logistics enterprise implementation plan
    and strategy for the Army for $21 million to Enterprise Integration, Inc. (EII), who
    subcontracted the work to Gartner, Inc. We determined that Gartner was the incumbent
    contractor for this work for the Army. Nine contractors were solicited for this work, yet only EII
    submitted a bid. The documentation indicated that three of the nine contractors that the ITM
    said were solicited never received a request for proposal from the CSC. The CSC allowed
    these three contractors to submit proposals; one responded with a bid of $7.87 million. The
    Army determined, however, that the second contractor’s proposal was technically
    unacceptable. Based on our review of the Army’s technical evaluation, we believe that the
    CSC should have requested more information from the contractor in an attempt to satisfy the
    Army’s stated reasons for rejecting the proposal, particularly considering the significant
    difference in cost. We also noted that the CSC made no attempt at obtaining additional
    discounts from EII even though the price was well in excess of the MOT and the CSC had a
    strong negotiating position having received a much lower bid from the other contractor.




                                             35
                                                                                    APPENDIX A

              SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                         (Continued)


11. The Air Force Medical Support Agency (AFMSA) is a large Region 6 CSC customer. During
    the period of our review, the AFMSA was in the midst of a large-scale infrastructure upgrade
    to its medical facilities at Air Force bases worldwide. The CSC received $23 million from the
    Air Force to fund this project under one MIPR, $18 million of which was received in November
    2001. The documentation indicates that ARK Systems, Inc. had been performing all of the
    work under this project as a subcontractor to various prime contractors under separate task
    and delivery orders by location. In addition, we noted that the Statements of Work for these
    tasks were very similar and identical in some cases except for the location of the work. We
    believe that the CSC could have saved the Government a substantial amount of money by
    leveraging the AFMSA’s requirements as a whole and issuing one task order combining the
    work.

    Initially, the Region 6 CSC allowed the integrity of the procurement process to be violated by
    signing orders where the AFMSA had solicited and obtained bids from various prime
    contractors, selecting the awardee, and then simply forwarding the documentation to the CSC
    for award. These are aspects of the process that only the CSC, as the contracting activity, has
    the authority to do. Eventually, the CSC insisted that the AFMSA cease its inappropriate
    involvement, but the CSC continued to allow the AFMSA to dictate the bidders list. We
    determined that all of the prime contractors were going to ARK Systems for pricing because
    they knew that the AFMSA wanted to use ARK for all of the labor on this project and did not
    want to solicit ARK directly on the open market which would subject the tasks to full and open
    competition. We also determined that two of the contractors solicited did not even have
    Schedule contract coverage for the work to be performed. Accordingly, the CSC did not
    satisfy the provisions of Section 803 and also awarded a task to one of these contractors that
    was not binding, since it was not in accordance with contract terms and conditions.

    In early 2003, a CSC contracting officer noted that the bids were similar on a task that she
    was asked to sign. She refused to sign the order or any subsequent orders for the AFMSA
    project, suspecting that the AFMSA was attempting to avoid the competition requirements of
    Section 803 in that all of the bidders seemed to have the exact same pricing for major portions
    of the labor and materials. The Region 6 CSC called a meeting with the AFMSA to discuss
    the issue and alternative methods for accomplishing the work; however, the Region 6
    Contracts Division Director approved this task and one other task with the same issues
    without properly documenting the nature of the discussions with AFMSA

12. The scope of this time and materials task order was to set up displays for professional show
    services in support of IT demonstrations for the Army. The statement of work and labor
    categories proposed indicated that this was not IT work, as stated by the CSC contracting
    officer in an e-mail to the ITM, “What you are wanting to buy is not IT.” In addition, the
    contractor’s proposal contained other direct costs of $186,000 in show space costs. The file
    did not indicate how the CSC determined these costs to be appropriate or fair and reasonable,
    nor did the file show that the level of effort and labor mix were analyzed to establish that total
    labor costs were fair and reasonable, as required by FSS’ Special Ordering Procedures.
    Despite these issues, the CSC approved the order.

13. The task order documentation did not include an analysis of labor mix and level of effort to
    establish that the total price was fair and reasonable.




                                            36
                                                                                   APPENDIX A

             SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                        (Continued)

14. We determined that the Army favored Gartner, Inc. to perform the work under this task. The
    ITM originally processed this order as a sole-source task to Universal Hi-Tech Development
    (UHD) through UHD’s Small Business SDC 8(a) contract, with UHD subcontracting all of the
    work to Gartner. After the contracting officer rejected the order as an attempt to avoid the
    competition requirements of Section 803, the ITM processed the order as an FSS Schedule
    buy, soliciting UHD (which also had a Schedule contract), Gartner, and Force 3. All three
    submitted a bid, and UHD was the low bidder. According to the evaluation factors in the
    statement of work, the CSC would have been compelled to award to UHD. However, the
    Army subsequently provided the CSC with documentation stating that UHD was technically
    unacceptable, thereby ensuring the award would go to Gartner, the next low bidder. The
    responsible contracting officer recognized that in a protest situation, the CSC would not be
    able to justify how it could determine UHD was technically inadequate when the CSC initially
    went to UHD sole-source, per the Army’s request. Accordingly, because the Army did not
    want to award to Gartner, it requested the task be cancelled.

    Task K03HH053S00 was processed according to the same scenario as the task described in
    the previous paragraph. However, in this case, the evaluation factors in the statement of work
    resulted in an award to Gartner.

15. The documentation for this order did not indicate how the CSC determined the price to be fair
    and reasonable. In addition, the CSC made no attempt to obtain additional discounts from the
    contractor despite the fact that the price was well in excess of the MOT.

16. The CSC awarded this time and materials task sole-source as follow-on work to a previous
    task. However, because the previous task was not competitively awarded, the award was
    improper. In addition, there was no documentation to indicate that an evaluation of the labor
    mix and level of effort was performed to establish the total price as fair and reasonable.

17. The CSC awarded this task for website improvements on a sole-source basis without
    sufficient justification. In addition, an evaluation of the labor mix and level of effort was not
    performed.

18. This time and materials task was for a budget analyst position; accordingly, it was improperly
    processed using the IT Fund.

19. This time and materials task was for planning services associated with continuity of operations
    (COOP); accordingly, it was improperly processed through the IT Fund.

20. This time and materials task was for an office manager position; accordingly, it was improperly
    processed using the IT Fund.

21. The CSC improperly added option years to this time and materials task that were not
    contemplated in the statement of work.

22. The tasks shown for the Joint Program Office for Biological Defense are considered one task
    for reporting purposes. The tasks were split up for administrative reasons. These tasks are
    discussed in the body of the report.

23. Orders to Tybrin Corporation are discussed in the body of the report.




                                            37
                                                                                         APPENDIX A

                     SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                                (Continued)


       24. FTS awarded, on January 17, 2002, this time and materials task to Riverside Research
           Institute (RRI) under FSS Schedule contract GS-35F-0185J. The task order, which has a
           ceiling cost of over $8 million through December 2004, was placed on behalf of Air Force
           Headquarters.

           Unsupported subcontractor and consultant costs. We found that FTS did not determine if
           proposed subcontractor and consultant costs, which amounted to over $2.6 million, were fair
           and reasonable. The responsible ITM stated, “We accepted these subcontracting costs on the
           basis that that they were approved rates on their Schedule.”

           Working with FSS contracting officials, we determined that the subcontractor, Applied
           Systems Research, Inc. (ASR), did not have an FSS Schedule contract until April 17, 2003,
           based on a proposal dated January 13, 2003. Our review also determined that ASR’s
           proposed rates and labor classifications did not match those of the prime contractor.
           Therefore, ASR’s proposed labor costs (about $1.99 million of a $7.99 million award) were
           unsupported ODCs and should have been competed on the open market.

           The responsible ITM also stated that GSA’s acceptance of over $619,000 in consultants’ fees
           was “due to the consultant’s labor rates being pre-approved on their Schedule.” RRI
           representatives stated that the consultants were not Schedule holders and that RRI had
           accepted the rates verbally. We tested invoicing from two consultants and did not find a
           Schedule number referenced on these invoices. Therefore, these rates were also
           unsupported.

           RRI invoicing not always correct. Because FTS did not seem to have control over
           subcontracting costs, we tested RRI’s invoice number 3851 to GSA, dated November 30,
           2002. We noted that subcontractor ASR did not invoice RRI in accordance with contract terms
           and conditions. As a result, GSA was overcharged $3,460, not including RRI’s general and
           administrative fee of 6.03 percent.

       25. We reviewed eight task orders placed with contractor Maden Tech Consulting, Inc. under their
           Small Business SDC 8(a) contract number GS00K97AFD2100. These time and materials task
           orders were placed between June 28, 2001, and September 4, 2002, on behalf of one client,
           the U.S. Army Product Manager Secure Electronic Transaction Devices (SET-D). The task
           orders were all priced just below the competitive threshold for 8(a) firms, with proposals
           ranging from $2,985,498 to $2,999,552.

           We determined that Maden Tech’s contract was used solely to gain the sole source
           advantages available under FAR 19.805-1 and that orders were split to avoid exceeding the
           8(a) competitive threshold of $3 million. Maden Tech officials stated that the labor categories
           available under the Small Business SDC 8(a) contract were not comparable to those required
           to do the work for the Army. 18 Maden Tech’s proposals, which were all bid up to the $3 million
           threshold, had no basis due to the Army’s “ill defined mission”. We determined that several of
           the Army’s requirements could have reasonably been combined and competed.

       26. This task is discussed in the body of the report.

18
  Maden Tech’s Small Business SDC 8(a) contract allows for additional labor categories as long as the
prices are commensurate with those found in FSS Schedule 70 contracts or their replacement Schedules.


                                                   38
                                                                                   APPENDIX A

             SCHEDULE OF ORDERS REVIEWED IN REGION 6
                                        (Continued)


27. This task order, dated September 25, 2000, was placed with Systems Research and
    Applications Corporation (SRAC) on behalf of the Navy’s Defense Manpower Data Center.
    The one-year time and materials order, valued at $3,680,000, was placed under SRAC’s FSS
    Schedule contract and was for technical and analytical support. The order was a follow-on to a
    previous competed order issued by the Defense Supply Service.

    The contract file did not indicate that FTS considered the level of effort and mix of labor when
    considering this award or subsequent modifications. FTS accepted the proposed labor costs
    based on written statements from the client attached to the proposal stating “Concur.”
    Therefore, price reasonableness was not established in accordance with FSS’ “Ordering
    Procedures For Services (Requiring A Statement Of Work).”

    Additionally, FTS awarded an additional year on this task that was not contemplated in the
    SOW. The additional period ran from September 11, 2001, through September 30, 2002, and
    was valued at over $4.2 million. We concluded that this represented a “follow-on to a follow-
    on” and perpetuated a noncompetitive situation.

28. The amounts shown as value of tasks generally represent the total value of the contractor’s
    proposal(s), inclusive of any options years. However, it should be noted that Region 6 FTS
    officials disagreed with this approach and were of the opinion that the correct order value was
    represented by the funded awarded amount, i.e., the amount actually obligated to the
    contractor via an official Government purchase order. In fact, Region 6 officials provided us
    with a database which put the obligated value of the task and delivery orders we reviewed at
    around $225 million, as opposed to the per audit amount of about $356 million.

    It should be noted that the Region 6 CSC handled certain orders on a “direct fund cite” basis –
    instead of accepting a reimbursable funding document. For example, the Region 6 CSC
    handled over $24 million on behalf of JPO-BD on a direct fund cite basis (see the body of the
    report for more details). Although the IT Fund may not have been at risk for these direct fund
    cite orders, certainly the Government was at risk when the orders were not handled properly,
    and the value of such orders need to be included in our audit scope.

    We agree that many tasks are incrementally funded and that some of these tasks never are
    funded to the original proposed value. However, limiting our audit scope to include only
    obligated (awarded) amounts would be responding to a funding issue instead of a
    procurement issue. Contracting officers should be testing the price reasonableness of the
    contractor’s overall proposal, not just the portion for which there is funding. By the same
    token, Government purchase orders should clearly cite the ceiling amounts on time and
    materials tasks.

    In addition, the acceptance of incremental funds is an FTS policy decision. Our review noted
    instances of tasks experiencing significant unwarranted cost growth. We noted an instance
    where a contractor’s incumbency was over 14 years. It would not be accurate to show a task
    as having a value of $200,000 (amount obligated) when the total proposed value is actually $5
    million.




                                           39
                                                                                                                               APPENDIX B

                              AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                     CLIENT SUPPORT CENTERS
                                 REPORT NUMBER A020144/T/5/Z04002

                          SCHEDULE OF ORDERS REVIEWED IN REGION 10
                                                            Service
                                               Client         or                                                                   Value of
          Order #        Order Date         Organization   Commod          Vehicle                    Contractor                    Task        Notes

   Region 10 Orders
 1 A2S12B0759                8/8/2002 Agriculture             S            MAS       Anteon Corporation                        $      901,100
 2 A2S12S0085               3/28/2002 Agriculture             S            MAS       URS Group Inc                                    108,973
 3 A2S12S0652               4/11/2002 Agriculture             S            MAS       DataLogic Inc                                    434,668
 4 A2S13B0544               6/28/2002 Commerce                S            MAS       Anteon Corporation                               316,671
 5 A2S17B0346              12/13/2001 Navy                    S            MAS       John J. McMullen Associates, Inc.             16,184,583
 6 A2S17B0832                5/7/2002 Navy                    S            MAS       John J. McMullen Associates Inc.                 224,981
 7 A2S17B1088               7/19/2002 Navy                    S            MAS       ADI Technology Corporation                       865,000
 8 A2S17B1176               8/21/2002 Navy                    S            MAS       ADI Technology Corporation                       106,566
 9 A2S17B1260                9/6/2002 Navy                    S            MAS       IBM                                              436,900
10 A2S21B0993               6/19/2002 Army                    S            MAS       Federal Data Corporation                         110,000
11 A2S21E0255              12/27/2001 Army                    S            MAS       Information Systems Support, Inc.                 72,348
12 A2S21S0811               5/20/2002 Army                    S            MAS       IIF Data Solutions, Inc.                       4,901,428
13 A2S21S0852               8/21/2002 Army                    S            MAS       Environmental Restoration Company                296,625
14 A2S47E0431                1/3/2002 GSA                     S            MAS       N-Link Corporation                                95,803
15 A2S69B0113               10/1/2001 Transportation          S            MAS       Anteon Corporation                                76,542
16 A2S69S0692               4/12/2002 Transportation          S            MAS       Maxim Group Federal Services LLC                  54,400
17 A2S75B0114              10/13/2001 HHS                     S            MAS       N-Link Corporation                               426,102
18 A2S75B0117               10/1/2001 HHS                     S            MAS       Anteon Corporation                               222,882
19 A2S96B0008              10/23/2001 Army                    S            MAS       Anteon Corporation                               108,158
20 A2S96B0139              10/19/2001 Army                    S            MAS       N-Link Corporation                               935,908
21 A2S96B0143              10/19/2001 Army                    S            MAS       N-Link Corporation                               104,000
22 A3S12B0084                9/3/2002 Agriculture             S            MAS       Anteon Corporation                               537,137
23 A3S17S0139               9/30/2002 Navy                    S            MAS       Silicon Graphics Federal, Inc.                   113,518
24 A3S57S0123               9/24/2002 Navy                    S            MAS       Science Applications International Corp          381,778
25 A3S75B0070               9/20/2002 HHS                     S            MAS       N-Link Corporation                               352,354
26 A2S21T1382               9/27/2002 Army                    S          8(a) IDIQ   S&K Technologies, Inc.                         1,412,964
27 GS-10TR-00-EBF-2546      9/29/2000 Army                    S          SDC 8(a)    Information Systems Support, Inc.              2,500,000    1
28 A1S21E0767               3/30/2001 Army                    S          SDC 8(a)    Information Systems Support, Inc.              2,449,120    2
29 A1S21E0765                4/2/2001 Army                    S          SDC 8(a)    Information Systems Support, Inc.              2,941,600    2
30 A2S21E0536               2/20/2002 Army                    S          SDC 8(a)    Information Systems Support, Inc.                657,720    2
31 A2S21E0510               3/20/2002 Army                    S          SDC 8(a)    Information Systems Support, Inc.                358,457    2
32 A2S21E0845               5/15/2002 Army                    S          SDC 8(a)    Information Systems Support, Inc.                 84,042    2
33 A2S21E0842               7/11/2002 Army                    S          SDC 8(a)    Information Systems Support, Inc.                470,702    2
34 A1H21S6327               8/20/2001 Army                    C            MAS       ISI Professional Services                        148,887    1
35 GS10K-98-ECA-0348         6/4/1998 Army                    S       GS10K98ECD0003 ACS Systems and Engineering, Inc.                727,880    3
36 GS10K-98-ECA-0347         6/4/1998 Army                    S       GS10K98ECD0003 ACS Systems and Engineering, Inc.                680,698    3
37 GS10K-98-ECA-0324         5/5/1998 Army                    S       GS10K98ECD0005 ACS Systems and Engineering, Inc.                371,099    3
38 A2S21E0504               2/13/2002 Army                    S          SDC 8(a)    ACS Systems and Engineering, Inc.                800,663    4
39 A1S21E1023                7/6/2001 Army                    S          SDC 8(a)    ACS Systems and Engineering, Inc.              1,048,000    4
40 A2S21E0913                9/9/2002 Army                    S          SDC 8(a)    ACS Systems and Engineering, Inc.                639,414    4




                                                                  40
                                                                                                                  APPENDIX B

                        SCHEDULE OF ORDERS REVIEWED IN REGION 10
                                                          (Continued)


                                                    Service
                                       Client         or                                                          Value of
         Order #     Order Date     Organization   Commod     Vehicle                  Contractor                  Task      Notes

 41 A2S21E1101           7/19/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       621,575      4
 42 A2S21E0286           11/2/2001 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       667,508      4
 43 A2S21E0505           3/19/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       399,575      4
 44 A2S21E0445           1/15/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       579,948      4
 45 A2S21E1192            9/5/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       460,180      4
 46 A2S21F0166           10/3/2001 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       655,140      4
 47 A2S21E0911           6/10/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       426,704      4
 48 A2S21E1061           7/29/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       501,048      4
 49 10S00F2193            9/7/2000 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       598,000      4
 50 A2S21E0624           3/13/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       466,005      4
 51 A1S21E1246           9/18/2001 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       688,500      4
 52 A2S21S0456            2/6/2002 Army               S        MAS       DynCorp                                 785,664      5
 53 A1S17E0187          10/26/2000 Navy               S        MAS       American Systems Corporation            623,019      6
 54 A1S21E0947           6/11/2001 Army               S       SDC 8(a)   Information Systems Support, Inc.       164,831      7
 55 A2S21E0642            3/6/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       140,700      8
 56 A2S21E0645            3/6/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       140,700      8
 57 A2S21E0644            3/6/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       140,700      8
 58 A2S21E0653            3/7/2002 Army               S       SDC 8(a)   ACS Systems and Engineering, Inc.       140,700      8

   Region 10 Total                                                                                           $ 51,860,168




Notes:

         1. This task order resulted in an office building constructed to house the courseware
            development activities of the Washington Army National Guard, as discussed in the body of
            the report.

               Region 10 CSC officials used Small Business SDC 8(a) contractor Information Systems
               Support, Inc. (ISS) to procure the general construction and architectural services. Building 54
               was constructed and furnished for an amount we determined to be $953,688. Of this amount,
               $611,610 was placed against task order number GS10TR-00-EBF-2546 to ISS. The amount
               of $611,610 includes $457,389 to ISS’ general contractor (Camco Construction) and $66,543
               to ISS’ architect (Angelo Architect).

               The building’s cost of $953,688 is broken out as follows:

                                                 Task Order               Amount
                                          GS10TR-00-EBF-2546             $611,610
                                          A1H21S6327                     $140,947
                                          Furnishings                    $201,131
                                          Total:                         $953,688




                                                              41
                                                                                    APPENDIX B

             SCHEDULE OF ORDERS REVIEWED IN REGION 10
                                         (Continued)

         Task order A1H21S6327 represented an order to FSS Schedule contractor ISI
         Professional Services for a computer floor system, moveable walls, and lighting.
         Business Interiors Northwest, a dealer for various FSS Schedule furniture manufacturers,
         supplied the furnishings.

         The work surrounding Building 54 involved developing Web-based courseware for the
         National Guard’s Distance Learning Program. This program is utilized by guardsmen
         around the country to train and refresh training on any subject matter related to their
         Military Occupational Series. FTS officials stated that additional space was needed to
         house the guardsmen and contractors involved with this effort.

         Once constructed, the building was used for guardsmen and employees of the prime
         contractor ISS and subcontractor CLICK2LEARN, to develop courseware, such as
         evaluating text and classroom materials for content that can be turned into Web-based
         materials by subject matter experts.

2. These tasks involved improper subcontracting activity and are discussed in alert report
   number A020144/T/5/W03001.

3. These tasks represent orders to contractor ACS Systems and Engineering, Inc. during the
   early stages of the Army’s Total Army Distance Learning Program (TADLP).

4. These tasks represent our sample of specific sites where building renovation work was
   performed in support of the TADLP, as discussed in the body of the report. The program was
   intended to provide on-line training to remote Army personnel. A goal of the program was to
   build standardized classrooms (called digital training facilities) for participants in the program.
   We obtained documents indicating that the Army intended to build over 700 of these
   classrooms worldwide.

    Region 10 officials used Small Business SDC 8(a) contractor ACS Systems and Engineering,
    Inc. (ACS) to perform the classroom renovation work, under contract number
    GS00K97AFD2163. ACS provided, for a firm-fixed fee, the following base services:
    demolition; architectural; HVAC; electrical; furniture; wiring and cabling; and flooring and
    carpeting. The prices for these base services ranged from $120,000 to $370,500, depending
    on the number of classrooms and whether the site was located within the United States or
    outside the country. These prices do not include the site survey, which was priced at $38,500.

    A key feature of the construction program was the additional site preparation that ACS
    performed to bring each classroom up to the TADLP program’s standards. The additional site
    preparation work was often as, or more extensive than, the base service performed by ACS,
    described above.

    For example, ACS provided an additional $350,000 in building renovation services at Fort
    Stewart, Georgia to convert a dining hall into a distance learning facility. The additional site
    preparation for Bamberg, Germany classrooms consisted of the following:




                                            42
                                                                                            APPENDIX B

                    SCHEDULE OF ORDERS REVIEWED IN REGION 10
                                                (Continued)


                    Remove HVAC unit                                                    $1,100
                    Provide complete HVAC units for 3 Digital training facilities       $75,000
                    Provide air conditioning system for communications room             $8,500
                    Air conditioning system for office and break room                   $20,000
                    Remove 450 SF windows and infill with concrete masonry units        $12,000
                    Renovate 2 toilet and shower facilities                             $32,500
                    Fire alarm system                                                   $28,000
                    Remove existing gym floor and prepare for carpet install            $50,900
                    Provide corridors to all rooms                                      $30,625
                    HVAC indoor air-handling access                                     $1,225
                    Refurbish entrance foyer                                            $3,600
                    Provide exterior door, landing, steps, and landing                  $5,600
                    Build-out break room, office; finish hallways                       $21,600
                    Additional design for site prep                                     $12,500
                    Total:                                                              $303,150


           ACS used a German subcontractor to perform the above work.

           We determined that Region 10 spent about $36 million renovating Army facilities. However,
           this figure does not include the cost of additional site preparation, which could be very
           significant. We also determined that ACS employed at least two subcontractors providing
           architectural and mechanical engineering services, but could not determine from available
           documentation the dollar value of their services.

       5. This order is discussed in the body of the report.

       6. This Region 10 order was placed with American Systems Corporation (ASC) of Chantilly,
          Virginia to “Accomplish Communications Rooms Project and cabling of Buildings #1537 and
          #1538 at 29 Palms Marine Corps Base in accordance with quote specifications identified
          during site visit.” The task order, issued under ASC’s FSS Schedule contract number GS-35F-
          4581G, was a fixed price order totaling around $555,000. Modification number one, covering
          non-IT materials, increased the order’s value by about $67,000. The period of performance
          was October 27, 2000 through June 15, 2001.

           On October 2, 2001, the FTS contracting officer in Region 10 received a letter from the IBEW
           Local Union 477 contending that work performed under the subject task order should have
           been covered by the Davis Bacon Act.19 The letter was in response to a complaint by an
           employee of a subcontractor, Responsive Internet Systems, Inc. (RIS). The complainant
           indicated that certain work under the project fell under an electrician inside wireman’s scope of
           work.




19
  The Davis Bacon Act requires that prevailing wages be paid on all federally financed contracts in
excess of $2,000 for the construction, alteration, and/or repair, including painting and decorating, of a
public building or a public work.


                                                    43
                                                                                  APPENDIX B

            SCHEDULE OF ORDERS REVIEWED IN REGION 10
                                       (Continued)

    On January 7, 2002, FTS contracting officers received a letter from the Department of Labor’s
    Office of Enforcement Policy indicating that Davis Bacon Act requirements should have been
    included in this procurement. Accordingly, in a letter to ASC dated February 4, 2002, the
    contracting officer declared, “a portion of the work performed under this Task Order was
    construction in nature and therefore the Davis Bacon Act applies.”

    ASC submitted a request for equitable adjustment, in the amount of $161,776.38, to FTS
    requesting additional wages for carpenter, electrician, and communications worker/system
    installer. FTS’ contract modification for $161,776.38 was rescinded because the customer
    agency refused to pay. GSA paid ASC the amount of $161,776.38 on or about February 12,
    2003. The funds were taken out of the IT Fund.

7. This order was placed with Small Business SDC 8(a) contractor Information Systems Support,
   Inc. (ISS) on behalf of the Washington Army National Guard. The order was for the conversion
   of a limited use classroom at the Olympia, Washington Armory and a storage room at the
   Montesano, Washington Armory into Distant Learning Centers. ISS’ subcontractor was Lincoln
   Construction, Inc. of Spanaway, Washington. This order was placed under the auspices of the
   IT Fund.

8. These orders were placed with Small Business SDC 8(a) contractor ACS Systems and
   Engineering, Inc. (ACS), under their contract number GS00K97AFD2163. The orders, which
   were placed under the auspices of the IT Fund, were for the modernization of existing
   classrooms for the Army’s TRADOC (Training and Doctrine) command. The work consisted of
   site surveys, site design by licensed architects and engineers, renovation and rehabilitation of
   existing facilities, demolition, interior work, electrical, and limited HVAC work. This work was
   not within the scope of ACS’ contract. The Army intended to build hundreds of these
   classrooms during the period 1998 through 2009.




                                           44
                                                                                                                          APPENDIX C

                                  AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                         CLIENT SUPPORT CENTERS
                                     REPORT NUMBER A020144/T/5/Z04002

                              SCHEDULE OF ORDERS REVIEWED IN REGION 4

                                                    Service

                                         Client       or                                                                         Value of

          Order #    Order Date      Organization   Commod      Vehicle                            Contractor                      Task     Notes

   Region 4 Orders
 1 4TCG14027018       2/25/2002   Interior            S           MAS     DynCorp                                          $      300,951    1
 2 4TFG57022111       11/6/2001   Air Force           S           MAS     Tetra Tech EM Inc.                                      416,346    2
 3 4TAG96020304       10/1/2001   Army                S           MAS     Quality Research, Inc.                                  532,412    3
 4 4TFG57022137       11/8/2001   Air Force           S           MAS     Southwest Research Institute                            553,163    4
 5 4TCG24025310      12/20/2001   OPM                 S           MAS     Research Management Consultants, Inc.                 6,200,169    5
 6 4TCG24025321        9/1/2002   OPM                 S           MAS     Research Management Consultants, Inc.                   648,318    6
 7 4TFG57021254       7/19/2002   Army                S           MAS     Systems & Electronics, Inc                            8,624,926
 8 4TEG21022431       10/1/2001   Army                S           MAS     Metamor Government Solutions, Inc.                   16,638,649    3
 9 4TCG75027033        7/1/2002   HHS                 S           MAS     ACS Government Services, Inc.                           350,000    3
10 4TEG21024851        9/1/2002   Army                S           MAS     Metamor Government Solutions, Inc.                      372,171    7
11 4TFG57022141      11/16/2001   Air Force           S           MAS     TRW Systems & Information Technology Group              440,618    3
12 4TEG21022503      10/30/2001   Army                S           MAS     Metamor Government Solutions, Inc.                      616,585    5
13 4TCG20027019        6/7/2002   Treasury            S           MAS     Anteon Corporation                                      295,295    8
14 4TAG89023313       9/29/2001   Energy              S           MAS     ACS Government Solutions Group, Inc.                    383,787    5
15 4TWG97023711       10/1/2001   Army                S           MAS     Sytex, Inc.                                           2,272,523    5
16 4TWG97023713      11/26/2001   Army                S           MAS     Acquisition Engineering Consultants, Inc.               524,444
17 4TWG21013137       10/3/2001   Army                S           MAS     Gallup, Inc.                                            248,641     9
18 4TAG57010637       1/28/2002   Air Force           S           MAS     Harris Technical Services Corporation                   588,174    10
19 4TAG57010668      10/21/2001   Air Force           S           MAS     DynCorp                                               2,228,318    11
20 4TWG21024180       4/19/2002   Army                S           MAS     Dynetics, Inc.                                          235,549    12
21 4TWG21024106      10/23/2002   Army                S           MAS     COLSA Corporation                                       276,484     2
22 4TWG21024144        1/1/2002   Army                S           MAS     ARINC Engineering Services LLC                        1,090,519    12
23 4TWG21024088       4/19/2002   Army                S           MAS     Quantum Research International, Inc.                    222,012     3
24 4TWG21024143      12/27/2001   Army                S           MAS     KPMG Consulting LLC                                     287,664    13
25 4TWG21024164       3/15/2002   Army                S           MAS     Applied Data Trends, Inc.                               302,883    14
26 4TWG21024173       5/28/2002   Army                S           MAS     Sparta, Inc.                                            214,789    15
27 4TWG21024140        1/1/2002   Army                S           MAS     Camber Corporation                                   33,523,960    16
28 4TAG57020690       4/15/2002   Air Force           S           MAS     Madison Research Corporation                            324,100    17
29 4TWG21022008        3/1/2002   Army                S           MAS     System Studies and Simulation, Inc.                   4,158,133     3
30 4TEB21023050      11/29/2001   Army                S          GWAC     Northrop Grumman Information Technology, Inc.        14,906,988     3
31 4TCB75025307        5/6/2002   HHS                 S          GWAC     Booze-Allen & Hamilton, Inc.                            438,638     3
32 4TEB21023059       2/13/2002   Army                S          GWAC     Northrop Grumman Information Technology, Inc.           532,836     3
33 4TEG21022455      10/24/2001   Army                S       FAST BPA    Computer Intelligence 2, Inc.                        20,487,805    18
34 4TAB96020303       10/1/2001   Army                S          GWAC     EER Systems, Inc.                                     4,734,747     3
35 4TFL57022105      1/23/2002    Air Force           S          GWAC     EER Systems, Inc.                                    20,526,542     3
36 4TAG57027022       9/20/2002   Air Force           S          GWAC     Sentel Corporation                                   15,108,297     3
37 4TPB21023700       3/27/2002   Army                S          GWAC     Anteon Corporation                                   53,930,012    19
38 4TNG17031026       12/5/2002   Navy                S           MAS     Personnel Decisions Research Institutes, Inc.           222,612
39 4THF21028077       11/6/2001   Army                C           MAS     Telos Corporation                                     7,142,400    19
40 4TFF57022522        9/4/2002   Air Force           C           MAS     Telecommunications Systems, Inc.                      2,023,269    20
41 4TNF17027499       5/29/2002   Navy                C           MAS     ASAP Software Express                                   426,567
42 4TCF75021539       9/27/2002   HHS                 C           MAS     SAIC                                                    373,031
43 4TNF17027060       10/1/2001   Navy                C           MAS     Expanets                                                297,199    21
44 4TAF21016564       9/28/2001   Army                C           MAS     Motorola, Inc.                                          556,309    22
45 4TNF17020002      11/21/2001   Navy                C           MAS     Video and Telecommunications, Inc.                      154,369    23
46 4TNF17020003      12/28/2001   Army                C           MAS     Innovative Computer Resources, Inc.                     271,217    23
47 4TNF17028831        3/5/2002   Navy                C           MAS     Dell Computer Corporation                               245,380
48 4TFF57029074        8/7/2002   Air Force           C          GWAC     NGIT/Logicon FDC                                      1,871,346    24
49 4TCF75025320       8/29/2002   HHS                 C          GWAC     Force 3, Inc.                                           416,007
50 4TEF21026505      10/19/2001   Army                C        Open MKT   Innovative Network Solutions                            400,260    25


  Region 4 Total                                                                                                           $227,937,414




                                                                          45
                                                                                            APPENDIX C

                      SCHEDULE OF ORDERS REVIEWED IN REGION 4
                                                  (Continued)
Notes:

         1. This was a time and materials task in which one offer was received. The CSC did not address
            the labor hours and level of effort in the determination of fair and reasonable pricing. Also, the
            CSC improperly added task option years and added work that was outside the scope of the
            original task. The task grew substantially from the initial award.

         2. This was a sole source, time and materials task.         Fair and reasonable supporting price
            documentation was inadequate.

         3. This was a time and materials task.

         4. This was a sole source, time and materials task.

         5. This was a time and materials task.         The fair and reasonable price determination was
            inadequate.

         6. This was a time and materials task in which one offer was received. The fair and reasonable
            price determination was inadequate.

         7. This was a time and materials task in which one quote was received.

         8. This was a time and materials task in which two quotes were received; however, the quotes
            were materially far apart, and price reasonableness was not adequately supported.

         9.   This task was a sole source award for the development of a sales manager selection
              instrument. Documentation was incomplete to support fair and reasonable pricing.

         10. This was a sole source, time and materials task. The client’s reasons for restricting
             competition were not adequately supported. There was no evaluation of the level of effort and
             labor mix.

         11. The client’s reasons for restricting competition were not adequately supported.
             Documentation was inadequate to support evaluation of the level of effort and labor mix. This
             was a time and materials task.

         12. There was no explanation as to why only one contractor was solicited. The analysis of the
             level of effort and labor mix was not adequately supported. This was a time and materials
             task.

         13. The fair and reasonable price determination was not supported. The client justification for
             restricting competition was not supported.

         14. This was a time and materials task, which was improperly issued as a logical follow-on order
             because the original order was also sole source.

         15. This was a sole source award in which the CSC did not provide an explanation as to why only
             one contractor was solicited. The analysis of level of effort and labor mix was not adequately
             supported.




                                                     46
                                                                                 APPENDIX C

              SCHEDULE OF ORDERS REVIEWED IN REGION 4
                                         (Continued)

16. This was a time and materials task in which competition was limited to one source with no
    explanation. The justification for award was not adequately supported.

17. The file documentation refers to a Government estimate that was not in the file and was not
    provided.

18. The file documentation did not include a justification for limiting competition and did not
    provide fair and reasonable pricing support. This was a time and materials task, which
    included $11 million in ODCs. The ODCs represented about 54 percent of the value of the
    task order.

19. This order is discussed in the body of the report.

20. Six Schedule holders were solicited; however, only one firm submitted an offer.

21. One quote was received. Fair and reasonable price determination was not supported.

22. Six Schedule contractors were solicited; however, only one firm submitted an offer.
    Documentation was inadequate to evaluate pricing.

23. The client justification to limit competition was inadequate.

24. Four firms were solicited; however, only one proposal was received. Contract rates and other
    pertinent documentation were not in the file.

25. The contractor quotes and Government estimate were missing from the file.




                                             47
                                                                                                                 APPENDIX D


                     AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                            CLIENT SUPPORT CENTERS
                        REPORT NUMBER A020144/T/5/Z04002

                                  SCHEDULE OF NON-IT ORDERS


         Order                                                    Contract
        Number                      Contractor                    Number            Customer        Amount        Notes

Region 4 Orders

4TWG21024143         KPMG Consulting LLC                    GS-23F-0016J     Army                     287,664             1
4TWG21024088         Quantum Research International, Inc.   GS-23F-0064K     Army                     222,012             2
4TWG21013137         Gallup, Inc.                           GS-23F-8193H     Army                     248,641             3
4TWG21024180         Dynetics, Inc                          GS-23F-0103K     Army                     235,549             4

Region 4 Totals                                                                                $      993,866


Region 6 Orders

K02MM043S00          STR L.L.C.                             GS-35F-0123K     Air Force         $       668,219         5
K01BF024S00          Aegis Research Corp.                   GS-35F-0240J     DOD                    18,348,135         6
K03MT162S00          Powerware Corp.                        GS-07F-7465C     DOD                       674,774         7
K02KH054S00          Systems Research and Applications      GS-35F-4594G     Air Force                 257,786         8
K02KH052S00          SAIC                                   GS-23F-8006H     Air Force                 869,943         9
K00TJ031S00          National Micrographics Systems, Inc.   GS-25F-4025B     DOD                    36,866,711        10
K00TJ031S01          National Micrographics Systems, Inc.   GS-25F-4025B     DOD                                      10
K00TJ031S02          National Micrographics Systems, Inc.   GS-25F-4025B     DOD                                      10
K00TJ031S03          National Micrographics Systems, Inc.   GS-25F-4025B     DOD                                      10
K02BN027S00          Airpark Sales and Service, Inc.        GS-24F-0027L     DOD                     5,615,519        11
K02TH141H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,956,762        12
K02TH140H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,956,762        12
K02TH142H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,956,762        12
K02TH143H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    1,274,748        12
K02TH139H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    1,524,623        12
K02TH138H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,613,430        12
K02TH135H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                      343,811        12
K02TH134H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,795,227        12
K02TH133H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,946,784        12
K02TH132H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,980,256        12
K02TH136H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,567,232        12
K01TH175H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                    1,436,455        12
K01TH175H01          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,737,272        12
K01TH175H02          Northern NEF, Inc.                     GS06K97BND0455   Navy                    2,886,518        12
K02TH020H00          Northern NEF, Inc.                     GS06K97BND0455   Navy                      473,228        12
K02TH246H00          Northern NEF, Inc.                     GS00K97AFD2226   Navy                    1,942,500        12
K02TH245H00          Northern NEF, Inc.                     GS00K97AFD2226   Navy                    2,913,750        12
K03TH060H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13
K03TH061H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13
K03TH062H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13
K03TH063H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13
K03TH064H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13
K03TH065H00          RMES Communications, Inc.              GS06K97BND0458   Navy                    2,678,813        13

Region 6 Total                                                                                 $   117,680,085

Region 10 Orders

GS10TR-00-EBF-2546   Information Systems Support, Inc.      GS06K97BND0710   Army              $     2,500,000        14
A1H21S6327           ISI Professional Services              GS-29F-0208G     Army                      148,887        15
A1S21E0947           Information Systems Support, Inc.      GS06K97BND0710   Army                      164,831        16
GS10K-98-ECA-0348    ACS Systems and Engineering, Inc.      GS10K98ECD0003   Army                      727,880        17
GS10K-98-ECA-0347    ACS Systems and Engineering, Inc.      GS10K98ECD0003   Army                      680,698        17
GS10K-98-ECA-0324    ACS Systems and Engineering, Inc.      GS10K98ECD0005   Army                      371,099        17




                                                             48
                                                                                                            APPENDIX D

                                  SCHEDULE OF NON-IT ORDERS
                                                       (Continued)

         Order                                               Contract
        Number                 Contractor                    Number            Customer        Amount        Notes

A2S21E0504        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                      800,663        17
A1S21E1023        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                    1,048,000        17
A2S21E0913        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                      639,414        17
A2S21E1101        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     621,575         17
A2S21E0286        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     667,508         17
A2S21E0505        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     399,575         17
A2S21E0445        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     579,948         17
A2S21E1192        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     460,180         17
A2S21F0166        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     655,140         17
A2S21E0911        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     426,704         17
A2S21E1061        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     501,048         17
10S00F2193        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     598,000         17
A2S21E0624        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     466,005         17
A1S21E1246        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     688,500         17
A2S21E0642        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     140,700         18
A2S21E0645        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     140,700         18
A2S21E0644        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     140,700         18
A2S21E0653        ACS Systems and Engineering, Inc.   GS00K97AFD2163    Army                     140,700         18
A2S21S0456        DynCorp                             GS-35F-4694G      Army                     785,664         19
A1S17E0187        American Systems Corporation        GS-35F-4581G      Marine Corps             623,019         20

Region 10 Total                                                                           $    15,117,138        21

Total                                                                                     $   133,791,089




                                                           49
                                                                                           APPENDIX D

                                 SCHEDULE OF NON-IT ORDERS
                                                (Continued)

Notes:

   1. This firm-fixed price order was written against KPMG’s financial and business solutions contract.
      The task was for technical and analytical support services for the U.S. Army’s Utility Privatization
      Program. The scope of work included possessing familiarity, having working knowledge, and
      demonstrated ability to evaluate utility system infrastructure, utilities procurement, contracting
      methodologies, environmental laws and processes, real estate and legal issues related to utility
      systems, and Army policies regarding military installation operations and maintenance.

         The labor classifications proposed included engagement partners, financial analysts, and 10
         hours for “technical/graphic.” We concluded this was primarily a financial consultancy job to aid
         the Army in determining what to do with the approximately 275 CONUS utility systems under
         review. The IT portion of the work was incidental.

   2. This order was a time and materials task against Quantum Research International’s professional
      engineering services contract. The contractor was to provide “programmatic and analytical
      support” to the Aviation Electronic Combat Project Manager.

         The short statement of work did not provide reasonable assurance that any sort of IT work was
         going to be accomplished: the contractor was to serve as a primary advisor to senior
         management personnel on issues related to various items and systems. We determined that
         1,920 hours of the 2,000 hours proposed by the contractor were to be filled by a “subject matter
         expert” as opposed to a readily discernible IT labor classification. The contract data requirements
         list could not be located. While this project almost certainly had an IT component due to the
         several systems being managed, we concluded that it was primarily technical engineering support
         of an avionics equipment-related mission.

   3. This was a firm-fixed price order placed against Gallup’s Management, Organizational and
      Business Improvement Services (MOBIS) contract. The task description was to “Develop Sales
      Manager Selection Instrument” on behalf of the U.S. Army Recruiting Command. The contractor’s
      prior work had documented the necessity to support sales personnel with a talented sales
      manager.

         The subtasks for this job were entitled project planning meeting, situation analysis, focus groups
         and job observation, develop structured interview, conduct in-depth interview, data analysis and
         reports, presentation, and sample assessment implementation. We found that 87 percent of the
         $222,008 in proposed direct labor costs were for (in descending order of dollars) task leaders,
         selection analysts, in-depth interviewers, program manager, focus group leader, clerical, and
         supervisor. Only about 13 percent of the labor dollars were for statisticians. We concluded that
         the IT portion of this business improvement job was minimal.

   4. This order was a time and materials task against Dynetics’ professional engineering services
      contract. The task was for technical and programmatic analyses support for the Common Missile
      Project Office located at Redstone Arsenal.




                                                   50
                                                                                         APPENDIX D

                             SCHEDULE OF NON-IT ORDERS
                                            (Continued)

    This effort was primarily an engineering effort. Region 4 officials stated that this project had an “IT
    relation”. The proposed labor categories were not overtly IT-related, with the majority of hours
    proposed belonging to engineer/analyst positions. Although this project certainly had an IT
    component, it was primarily engineering support of a weapons-related mission.

5. This order was for a defense planning threat assessment.

6. This order was to provide security services.

7. This order was for demolition and replacement of an uninterruptible power supply system.

8. This order was for Continuity of Operations (COOP) planning and exercise support.

9. This task hired a budget analyst.

10. Order numbers K00TJ031S00 through K00TJ031S03 involved the production of items used in
    biological warfare.

11. This order, which had a significant R&D component, included aeronautical and engineering effort
    in support of a foreign government.

12. The orders to Northern NEF, Inc. are for the design, fabrication, and installation of boat barrier
    systems.

13. The orders to RMES Communications, Inc. are for additional boat barriers.

14. The office building (Building 54) at Camp Murray, Washington State was constructed under this
    order.

15. This task order covered additional construction materials for Building 54.

16. This task order covered additional building renovation services in Olympia and Montesano,
    Washington State.

17. These orders to ACS Systems and Engineering, Inc. represent our specific sample of orders for
    building renovation services placed on behalf of the Total Army Distance Learning Program.

18. Orders A2S21E0642 through A2S21E0653 represent building renovation services placed on
    behalf of the Army Training and Doctrine Command.

19. This order represents building renovations to the Moldovan (Eastern Europe) Ministry of Defense
    Conference Center.

20. This task order was for construction work that was subject to claims under the Davis Bacon Act.

21. Region 10 spent over $36 million on building renovations on behalf of the Total Army Distance
    Learning Program, an amount that does not include significant sums for additional site
    preparation (renovation) services. The figure shown includes only those facilities in our specific
    sample.




                                                51
                                                                        APPENDIX E


   LIST OF DOD INSPECTOR GENERAL AUDIT REPORTS RELATING TO DOD
                       PURCHASES FROM GSA




 Report            Date of Report                            Title
 Number

D-2004-015        October 30, 2003      Contracts for Professional, Administration and
                                        Management Support Services

D-2003-090          May 13, 2003        Use and Control of MIPRs at the Air Force
                                        Pentagon Communications Agency

D-2003-027       November 25, 2002      Contract Actions Awarded to Small Businesses

D-2002-152       September 25, 2002     Defense Hotline Allegations Concerning the
                                        Procurement of the Seat Management Initiative


 For access to complete copies of these reports, please see the DOD-IG Website:
 http://www.dodig.osd.mil/audit/reports/index.html.




                                      52
                                                                                                                                                                                                                                                                                                                                                                                                                       APPENDIX F


                                                                                     FTS COMMISSIONER’S RESPONSE TO THE DRAFT REPORT




December 4, 2003
MEMORANDUM FOR DAVID K. STONE, REGIONAL INSPECTOR GENERAL FOR AUDITING, GREAT LAKES REGION (JA-5)
FROM:                                                                                     SANDRA N. BATES, COMMISSIONER (T)
SUBJECT:                   Draft Report: Audit of Federal Technology, Service’s Client Support Centers, Report Number A020144/T/5/XXXXX
Thank you for your draft audit report on the General Services Administration (GSA), Federal Technology Service (FTS), Client Support Centers (CSCs). I appreciate your timely response to our request to conduct the audit, and the opportunity to review and comment on the draft report.

FTS concurs with the report’s three recommendations:

1)                                          Perform a detailed analysis of the factors contributing to the problems identified,
                      including an inadequate system of internal management controls, CSC personnel’s lack of adherence to proper procurement procedures, and an overemphasis of revenue growth and client-driven decisions.
2)                                          Based on this analysis, determine what changes are needed in the structure, operations and mission of the CSCs, mix of resources, and management control processes to align policies and procedures with laws and regulations and GSA’s own core values in ensuring the Government obtains best value, and develop a time-phased action plan to implement these changes.
3)                                          Develop additional performance measures for the CSCs that promote competition and other sound procurement policies.

FTS has begun to implement a series of actions and initiatives designed to improve acquisition quality and integrity across the organization. GSA senior executives work closely with FTS to monitor progress on these actions and initiatives on a weekly basis.




                                                                                                                                                                                                                                                                                 53
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               APPENDIX F




The following are initiatives currently underway, which specifically address the three recommendations cited in the report:
Recommendations 1 and 2: FTS will award a task order this month for an independent review of contract and management operations. This FTS Management Study will identify appropriate actions to ensure that FTS associates adhere to sound procurement practices and procedures while serving the diverse needs of Government agency clients. The review will provide recommendations concerning the flow of communication, effectiveness of existing structures, work flow, training, reference materials, and any policy and/or procedural changes that will strengthen management
controls and mitigate shortcomings or defects. FTS will develop a time-phased action plan to implement approved study recommendations.
Recommendation 3: FTS has awarded a task order to conduct an Assessment of Performance Goals and Measures. The assessment has begun and will validate the value proposition of the IT Solutions business line (including both national and regional CSCs) and recommend long-term strategic goals, annual performance goals, and performance measures based on best industry practices.
Other actions taken by FTS to strengthen the system of internal management controls and to assure acquisitions comply with applicable rules, regulations, and guidelines include:
                       1. Reiteration of Existing FTS Policies and Internal Controls: On September 23, 2003, I issued a memorandum that reiterated applicable regulations and policies issued by and/or pertaining to FTS over the past few years. This memorandum strongly admonishes all FTS activities to scrupulously adhere to the letter and spirit of all pertinent guidance, including the Federal Acquisition Regulations and the December 6, 2001, memorandum to all IT Solutions associates regarding “Growing the Business Responsibly.”
                       2. Legal Reviews of FTS Contractual Matters: On October 1, 2003, the GSA Office of General Counsel and I issued a policy memorandum implementing additional legal review requirements to assure compliance with all applicable laws, regulations, and other requirements.
                       3. FTS Acquisition Checklists: On October 6, 2003, I issued a memorandum transmitting a series of standard acquisition checklists to be used by FTS associates in the procurement process to ensure consistency in acquisition procedures.
                       4. Procurement Management Review Program: On November 14, 2003, I issued a memorandum establishing this program and providing guidance to ensure sound procurement management review procedures for all FTS acquisition activities.
                       5. FT S Action Plan: On November 25, 2003, I issued a memorandum establishing a national standard to govern internal controls for task order acquisition activities. The memorandum directs all CSCs to comply with the Action Plan, which covers pre-award and post-award oversight, training requirements, and management controls.




                                                                                                                                                                                                                                                                             54
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      APPENDIX F




December 4, 2003
  SANDRA N. BATES, COMMISSIONER (T)
The following are initiatives currently underway, which specifically address the three recommendations cited in the report:
Recommendations 1 and 2: FTS will award a task order this month for an independent review of contract and management operations. This FTS Management Study will identify appropriate actions to ensure that FTS associates adhere to sound procurement practices and procedures while serving the diverse needs of Government agency clients. The review will provide recommendations concerning the flow of communication, effectiveness of existing structures, work flow, training, reference materials, and any policy and/or procedural changes that will strengthen management
controls and mitigate shortcomings or defects. FTS will develop a time-phased action plan to implement approved study recommendations.
Recommendation 3: FTS has awarded a task order to conduct an Assessment of Performance Goals and Measures. The assessment has begun and will validate the value proposition of the IT Solutions business line (including both national and regional CSCs) and recommend long-term strategic goals, annual performance goals, and performance measures based on best industry practices.
Other actions taken by FTS to strengthen the system of internal management controls and to assure acquisitions comply with applicable rules, regulations, and guidelines include:
                       1. Reiteration of Existing FTS Policies and Internal Controls: On September 23, 2003, I issued a memorandum that reiterated applicable regulations and policies issued by and/or pertaining to FTS over the past few years. This memorandum strongly admonishes all FTS activities to scrupulously adhere to the letter and spirit of all pertinent guidance, including the Federal Acquisition Regulations and the December 6, 2001, memorandum to all IT Solutions associates regarding “Growing the Business Responsibly.”
                       2. Legal Reviews of FTS Contractual Matters: On October 1, 2003, the GSA Office of General Counsel and I issued a policy memorandum implementing additional legal review requirements to assure compliance with all applicable laws, regulations, and other requirements.
                       3. FTS Acquisition Checklists: On October 6, 2003, I issued a memorandum transmitting a series of standard acquisition checklists to be used by FTS associates in the procurement process to ensure consistency in acquisition procedures.
                       4. Procurement Management Review Program: On November 14, 2003, I issued a memorandum establishing this program and providing guidance to ensure sound procurement management review procedures for all FTS acquisition activities.
                       5. FTS Action Plan: On November 25, 2003, I issued a memorandum establishing a national standard to govern internal controls for task order acquisition activities. The memorandum directs all CSCs to comply with the Action Plan, which covers pre-award and post-award oversight, training requirements, and management controls.




As a result of the Management Alert Report regarding Region 10, actions to improve management controls for that CSC have been planned and implemented during the course of the audit. Regional officials have implemented a corrective action plan, organizational realignment, suspension of awards, and an associate training plan. In addition, specific action plans for Regions 4 and 6 have been developed and are being implemented.

Effective assessment of the problems identified in the draft report and correction of the weaknesses to prevent the reoccurrence of such problems requires a joint effort on the part of FTS Central Office and the Regions. Since FTS Central Office and GSA Regional Administrators operate using a matrix management process, a true partnership and sharing of responsibility to identify and resolve management issues is paramount. Policy, procedures, and personnel issues are addressed both locally and nationally. I want to assure you that GSA and FTS management are working
together to review our operations, adjust goals and take strong actions to remedy problems. I am confident that this approach will lead to resolution of the audit report findings.

I want to extend my appreciation to members of the audit team for their efforts during the audit. Their work represents an important contribution to the significant improvement of FTS business practices and management controls.

I request that these comments be included in your final report. If you have any questions, please do not hesitate to contact me by phone at (703) 306-6020.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    SUBJECT




                                                                                                                                                                                                                                                                                 55
                                                             APPENDIX G

               AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                      CLIENT SUPPORT CENTERS
                  REPORT NUMBER A020144/T/5/Z04002

                              REPORT DISTRIBUTION

                                                                 Copies

Commissioner, Federal Technology Service (T)                        3

Assistant Inspector General for Auditing (JA and JAO)               2

Audit Planning Staff (JAN)                                          1

Administration and Data Systems Staff (JAS)                         1

Audit Follow-up and Evaluation Branch (BECA)                        1

Assistant Commissioner for IT Solutions (TF)                        1

Regional Administrator, Region 4 (4A)                               1

Regional Administrator, Region 6 (6A)                               1

Regional Administrator, Region 10 (10A)                             1

Assistant Inspector General for Investigations (JI)                 1

Deputy Associate Administrator for Acquisition Policy (MV)          1




                                        56
